<html>
<title> - NATIONAL IMPERATIVES FOR EARTH SCIENCE RESEARCH</title>
<body><pre>[Senate Hearing 110-1196]
[From the U.S. Government Publishing Office]








                                                       S. Hrg. 110-1196

                    NATIONAL IMPERATIVES FOR EARTH 
                            SCIENCE RESEARCH

=======================================================================

                                HEARING

                               before the

        SUBCOMMITTEE ON SPACE, AERONAUTICS, AND RELATED SCIENCES

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 7, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










                  U.S. GOVERNMENT PRINTING OFFICE

78-568 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
              Margaret Spring, Democratic General Counsel
   Christine D. Kurth, Republican Staff Director, and General Counsel
   Kenneth R. Nahigian, Republican Deputy Staff Director, and Chief 
                                Counsel
                                 ------                                

        SUBCOMMITTEE ON SPACE, AERONAUTICS, AND RELATED SCIENCES

BILL NELSON, Florida, Chairman       KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        TRENT LOTT, Mississippi,
MARK PRYOR, Arkansas                 JOHN E. SUNUNU, New Hampshire







                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 7, 2007....................................     1
Statement of Senator Nelson......................................     1

                               Witnesses

Brown, Ph.D., Otis D., Dean, Rosenstiel School of Marine and 
  Atmospheric Science, University of Miami; Member, Committee on 
  Earth Science and Applications from Space, National Research 
  Council, The National Academies................................    24
    Prepared statement...........................................     8
Colleton, Nancy, President, Institute for Global Environmental 
  Strategies; Executive Director, Alliance for Earth Observations    26
    Prepared statement...........................................    14
Freilich, Dr. Michael H., Director, Earth Science Division, 
  Science Mission Directorate, National Aeronautics and Space 
  Administration.................................................    23
    Prepared statement...........................................    10
Moore III, Ph.D., Berrien, Distinguished Professor and Director, 
  Institute for the Study of Earth, Oceans, and Space, University 
  of New Hampshire; Co-Chair, Committee on Earth Science and 
  Applications from Space, National Research Council, The 
  National Academies.............................................    22
    Prepared statement...........................................     3

 
            NATIONAL IMPERATIVES FOR EARTH SCIENCE RESEARCH

                              ----------                              


                        WEDNESDAY, MARCH 7, 2007

                               U.S. Senate,
   Subcommittee on Space, Aeronautics, and Related 
                                          Sciences,
         Committee on Commerce, Science and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:38 p.m. in 
room SR-253, Russell Senate Office Building. Hon. Bill Nelson, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good afternoon, and thank you all for 
coming. This is not a hearing on global warming, because the 
jury is already in and the conclusions have been overwhelming. 
There's almost near-unanimity of the world's leading scientists 
that the climate is changing, and we are responsible.
    It is especially sensitive for my state for the obvious 
reasons of being a peninsula with more coastline than any other 
state in the continental United States.
    So, today we're going to examine the more specific issue of 
whether you scientists have the tools that you need to monitor 
our fragile planet, and to study how what we're doing as humans 
is affecting it.
    This is simply a time in which we cannot afford any 
mistakes. For more than 40 years, NASA has developed satellites 
to study this planet, and they have ever-increasing accuracy. 
Go back to the 1960's TIROS satellites, those fuzzy views have 
now turned to the high-quality views that we have today. Space 
has clearly turned out to be the best vantage point from which 
we can study and observe this planet.
    We depend on these instruments, certainly to forecast our 
weather. If anybody ever doubts the utility of those 
instruments, just wait until you have an inbound hurricane, and 
you're absolutely glued to either the website of NOAA, the 
Weather Channel, or the local channel, that's giving you these 
accurate satellite views, along with NOAA's predictions from 
the National Hurricane Center.
    We depend on these instruments to forecast the weather, to 
predict and respond to natural disasters, and to study our 
climate and the Earth's ecosystems. They even help us measure 
the effects of land-use, deforestation, and pollution. NASA's 
history is filled with successful missions, like Landsat, and 
the Earth Observing System.
    Just a week ago, during our recess, I took off to Latin 
America visiting with several heads of state on a mission to 
build our relationships in that region of the world and 
throughout the Western Hemisphere.
    But one of the things that I wanted to do en route from 
having seen the President of Ecuador, going to see the 
President of Peru, was to go to the rainforest. There wasn't 
any sense of me going to the rainforest in Brazil, because they 
were all off at Carnival. But, they were available in the 
rainforest in the east of the Andes in Peru. I wanted to see 
for myself the destruction of the rainforest, in this case the 
uplands of the rainforest. On the sides of those mountains 
there was destruction, not so much for logging, but for the 
growing of coca and other plants, and legitimate crops.
    I shared with them that I became interested in 
deforestation 21 years ago, when I looked out the window of a 
spacecraft, coming across South America when, with the naked 
eye, I could see the destruction of the rainforest, because of 
the color contrast 203 miles away on the surface of the Earth 
below. In the same window of the spacecraft, I could look to 
the east, and see the result of the destruction of the 
rainforest. At the mouth of the Amazon the waters of the 
Atlantic were discolored for hundreds of miles out in the 
Atlantic from the additional silt.
    I want to understand that. I want to understand also, and 
this Committee wants to understand, how you all can help us 
understand so much of this delicate, fragile, but extremely 
beautiful place we call home that is suspended out in the 
middle of nothing.
    Today there is a reason for concern, for what my naked eye 
saw 21 years ago, and what my naked eye saw a week and a half 
ago on the sides of those lower Eastern Andes. We've tried to 
adjust to all of this, and we have a next-generation weather 
and earth satellite system, NPOESS--it's in trouble.
    The project is billions of dollars over budget, it's years 
behind schedule, and the key climate science instruments have 
been thrown overboard to keep the program alive. And while the 
President's 2008 budget request does include a miniscule 
increase, spending on Earth Science peaked in 2000, and has 
since decreased by 25 percent.
    Likewise, the number of Earth Science missions and 
instruments peaked earlier this decade, and is now in a slow 
decline. The President's request this year is a billion and a 
half for these Earth Science projects, and you all would like 
them to be $2 billion. I want to hear from you, the Committee 
wants to hear from you.
    This is not so much a problem of misplaced priorities, but 
rather, NASA is being asked to do too much with too little. And 
in this tough budget environment, it's tough to get these 
colleagues, it's tough to get them here to a hearing, it's 
tough to get them to join in supporting the program recommended 
by the Decadal Survey. Not at the expense of the other 
priorities, but by giving NASA the resources it needs to 
accomplish all of its vital missions.
    So, I want to welcome Dr. Freilich, Dr. Moore, Dr. Brown, 
Ms. Colleton. We're going to do something a little bit 
different. I'm going to take all of your prepared texts, they 
will be a part of the record. We're just going to have a 
conversation. When some of the other Senators come, I'll just 
stop and I'll let them jump right in. What we want to do is to 
get the maximum benefit of your thinking on what we should do.
    [The prepared statements of the witnesses follow:]

Prepared Statement of Berrien Moore III, Ph.D., Distinguished Professor 
  and Director, Institute for the Study of Earth, Oceans, and Space, 
 University of New Hampshire; Co-Chair, Committee on Earth Science and 
   Applications from Space, National Research Council, The National 
                               Academies
    Mr. Chairman, Ranking Minority Member, and members of the 
Committee: thank you for inviting me here to testify today. My name is 
Berrien Moore, and I am a professor of systems research at the 
University of New Hampshire and Director of the Institute for the Study 
of Earth, Oceans, and Space. I appear today in my capacity as co-chair 
of the National Research Council (NRC)'s Committee on Earth Science and 
Applications from Space: A Community Assessment and Strategy for the 
Future.
    The National Research Council is the unit of the National Academies 
that is responsible for organizing independent advisory studies for the 
Federal Government on science and technology. In response to requests 
from NASA, NOAA, and the USGS, the NRC has recently completed a 
``Decadal Survey'' of Earth Science and Applications from space. 
(``Decadal surveys'' are the 10-year prioritized roadmaps that the NRC 
has done for 40 years for the astronomers; this is the first time it is 
being done for Earth Science and Applications from space.) Among the 
key tasks in the charge to the Decadal Survey committee were to:

  <bullet> Develop a consensus of the top-level scientific questions 
        that should provide the focus for Earth and environmental 
        observations in the period 2005-2020; and

  <bullet> Develop a prioritized list of recommended space programs, 
        missions, and supporting activities to address these questions.

    The NRC survey committee has prepared an extensive report in 
response to this charge, which I am pleased to be able to summarize 
here today. Over 100 leaders in the Earth Science community 
participated on the survey steering committee or its seven study 
panels. It is noteworthy that this was the first Earth Science Decadal 
Survey, and the Committee and panel members did an excellent job in 
fulfilling the charge and establishing a consensus--a task many 
previously considered impossible. A copy of the full report has also 
been provided for your use.
    The Committee's vision is encapsulated in the following 
declaration, first stated in the Committee's April 2005 Interim Report: 
\1\
---------------------------------------------------------------------------
    \1\ NRC, Earth Science and Applications from Space: Urgent Needs 
and Opportunities to Serve the Nation, The National Academies Press, 
Washington, D.C., 2005. Also available online at http://www.nap.edu/
catalog/11281.html.

        ``Understanding the complex, changing planet on which we live, 
        how it supports life, and how human activities affect its 
        ability to do so in the future is one of the greatest 
        intellectual challenges facing humanity. It is also one of the 
        most important challenges for society as it seeks to achieve 
---------------------------------------------------------------------------
        prosperity, health, and sustainability.''

    As detailed in the Committee's final report, and as we were 
profoundly reminded by the latest report from the International Panel 
on Climate Change (IPCC), the world faces significant and profound 
environmental challenges: shortages of clean and accessible freshwater, 
degradation of terrestrial and aquatic ecosystems, increases in soil 
erosion, changes in the chemistry of the atmosphere, declines in 
fisheries, and above all the rapid pace of substantial changes in 
climate. These changes are not isolated; they interact with each other 
and with natural variability in complex ways that cascade through the 
environment across local, regional, and global scales. Addressing these 
societal challenges requires that we confront key scientific questions 
related to ice sheets and sea level change, large-scale and persistent 
shifts in precipitation and water availability, transcontinental air 
pollution, shifts in ecosystem structure and function in response to 
climate change, impacts of climate change on human health, and 
occurrence of extreme events, such as hurricanes, floods and droughts, 
heat waves, earthquakes, and volcanic eruptions.
    Yet at a time when the need has never been greater, we are faced 
with an Earth observation program that will dramatically diminish in 
capability over the next 5-10 years.
    The Interim Report described how satellite observations have been 
critical to scientific efforts to understand the Earth as a system of 
connected components, including the land, oceans, atmosphere, 
biosphere, and solid-Earth. It also gave examples of how these 
observations have served the nation, helping to save lives and protect 
property, strengthening national security, and contributing to the 
growth of our economy \2\ through provision of timely environmental 
information. The Interim Report documented that NASA had canceled, 
scaled back, or delayed at least six planned missions (Table 1), 
including a Landsat continuity mission. This led to the main finding in 
the Interim Report: ``this system of environmental satellites is at 
risk of collapse.''
---------------------------------------------------------------------------
    \2\ It has been estimated that one third of the $10 trillion U.S. 
economy is weather-sensitive or environment-sensitive (NRC, Satellite 
Observations of the Earth's Environment: Accelerating the Transition of 
Research to Operations, The National Academies Press, Washington, D.C., 
2003).

   Table 1.--Canceled, Descoped, or Delayed Earth Observation Missions
    [From the April 2005 Pre-Publication of the Interim Report of the
      Decadal Survey on Earth Science and Applications from Space]
------------------------------------------------------------------------
   Mission        Measurement      Societal benefit         Status
------------------------------------------------------------------------
Global        Precipitation       Reduced             Delayed
 Precipitati                       vulnerability to
 on                                floods and
 Measurement                       droughts;
 (GPM)                             improved
                                   capability to
                                   manage water
                                   resources in arid
                                   regions; improved
                                   forecasts of
                                   hurricanes.
Atmospheric   Temperature and     Protection of life  Canceled
 Soundings     water vapor         and property
 from                              through improved
 Geostationa                       weather forecasts
 ry Orbit                          and severe storm
 (GIFTS--Geo                       warnings.
 stationary
 Imaging
 Fourier
 Transform
 Spectromete
 r)
Ocean Vector  Wind speed and      Improved severe     Canceled
 Winds         direction near      weather warnings
 (active       the ocean surface   to ships at sea;
 scatteromet                       improved crop
 er follow-                        planning and
 on to                             yields through
 QuikSCAT)                         better
                                   predictions of El
                                   Nino.
Landsat Data  Land cover          Monitoring of       Canceled
 Continuity-                       deforestation;
 -bridge                           identification of
 mission (to                       mineral
 fill gap                          resources;
 between                           tracking of the
 Landsat-7                         conversion of
 and NPOESS)                       agricultural land
                                   to other uses.
Glory         Optical properties  Improved            Canceled
               of aerosols;        scientific
               solar irradiance    understanding of
                                   factors that
                                   force climate
                                   change.
Wide Swath    Sea level in two    Monitoring of       Instrument
 Ocean         dimensions          coastal currents,   canceled--descope
 Altimeter                         eddies, and         of an enhanced
 (on the                           tides, all of       OSTM
 Ocean                             which affect
 Surface                           fisheries,
 Topography                        navigation, and
 Mission,                          ocean climate.
 OSTM)
------------------------------------------------------------------------

    Since the publication of the Interim Report, the Hydros and Deep 
Space Climate Observatory missions were canceled; the flagship Global 
Precipitation Mission was delayed for another two and a half years; 
significant cuts were made to NASA's Research and Analysis program; the 
NPOESS Preparatory Project mission was delayed for a year and a half; a 
key atmospheric profiling sensor planned for the next generation of 
NOAA geostationary satellites was canceled; and cost overruns led to 
the NPOESS program undergoing a ``Nunn-McCurdy'' review. The 
recertified NPOESS program delays the first launch by 3 years, 
eliminates 2 of the planned 6 spacecraft, and de-manifests or de-scopes 
a number of instruments, with particular consequences for measurement 
of the forcing and feedbacks that need to be measured to understand the 
magnitude, pace, and consequences of global and regional climate 
change.
    It is against this backdrop that I discuss the present report.
    The Decadal Survey presents a vision for the Earth Science program; 
an analysis of the existing Earth observing system and recommendations 
to help restore its capabilities; an assessment of and recommendations 
for new observations and missions needed for the next decade; an 
examination of and recommendations concerning effective application of 
those observations; and an analysis of how best to sustain that 
observation and applications system. A critical element of the study's 
vision is its emphasis on the need to place the benefits to society 
that can be provided by an effective Earth observation system on a par 
with scientific advancement.
    The integrated suite of space missions and supporting and 
complementary activities that are described in our report will support 
the development of numerous applications of high importance to society. 
The expected benefits of the fully-implemented program include:

  <bullet> Human Health

    More reliable forecasts of infectious and vector-borne disease 
        outbreaks for disease control and response.

  <bullet> Earthquake Early Warning

    Identification of active faults and prediction of the likelihood of 
        earthquakes to enable effective investment in structural 
        improvements, inform land-use decisions, and provide early 
        warning of impending earthquakes.

  <bullet> Weather Prediction

    Longer-term, more reliable weather forecasts.

  <bullet> Sea Level Rise

    Climate predictions based on better understanding of ocean 
        temperature and ice sheet volume changes and feedback to enable 
        effective coastal community planning.

  <bullet> Climate Prediction

    Robust estimates of primary climate forcings for improved climate 
        forecasts, including local predictions of the effects of 
        climate change; determination in time and space of sources and 
        sinks of carbon dioxide.

  <bullet> Freshwater Availability

    More accurate and longer-term precipitation and drought forecasts 
        to improve water resource management.

  <bullet> Ecosystem Services

    More reliable land-use, agricultural, and ocean productivity 
        forecasts to improve planting and harvesting schedules and 
        fisheries management.

  <bullet> Air Quality

    More reliable air quality forecasts to enable effective urban 
        pollution management.

  <bullet> Extreme Storm Warnings

    Longer-term, more reliable storm track forecasts and 
        intensification predictions to enable effective evacuation 
        planning.

    I will now turn to a brief discussion of the budgetary implications 
of our recommendations.
    The President's FY08 budget request for NASA Earth Science is a 
mixture of some good news and bad news. The primary bit of good news is 
the small bottom line increases for 2008 and 2009. These increases 
address the needs of currently planned missions already in development, 
the completion of which is consistent with the Decadal Survey's 
baseline set of assumptions.
    Unfortunately, the out-year budgets reveal fundamental flaws in the 
budget and NASA's Earth Science plans--the budgets are totally 
inadequate to accomplish the Decadal Survey's recommendations. In 2010, 
the Earth Science budget begins to decline again and reaches a 20-year 
low, in real terms, in 2012. This decline reflects that the 2008 budget 
contains no provision for new missions, nor does it allow us to address 
the significant challenges facing our planet. These disturbing broad 
budgetary trends are captured in Figure 1.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Figure 1: The NASA Earth Science Budget in constant FY06 dollars 
(normalized for full-cost accounting across entire timescale; assumes 3 
percent/year inflation from 2006 to 2012). Mission supporting 
activities include Earth Science Research, Applied Sciences, Education 
and Outreach, and Earth Science Technology.
    Before turning to NOAA, I want to emphasize that the problems in 
the out-years appear to be due entirely to the lack of adequate 
resources. In fact, at a NASA town hall meeting that followed the 
release of our report on January 15, 2007 at the 2007 annual meeting of 
the American Meteorological Society, the head of NASA's Earth Science 
program, who appears today with me as a witness, stated that the 
recommendations in our report provided the roadmap for the Earth 
Science program we should have.
    The NOAA NESDIS budget picture is also a mixture of some good and 
bad news. In this case, the budget takes a small downturn in FY08, 
followed by significant growth in FY09-FY10, before turning down again 
in FY11 (Figure 2). It remains to be seen whether this $200 M/year 
growth in FY09 and FY10 can enable restoration of some of the lost 
capabilities to NPOESS and GOES-R. There appears to be no budgetary 
wedge for new starts. Finally, for a variety of reasons, the NOAA 
NESDIS budget is far from transparent, especially in the out-years.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Figure 2: The NOAA NESDIS Budget in constant 2006 dollars (assumes 
3 percent/year inflation from 2006-2012). Mission supporting activities 
include NOAA's Data Centers and Information Services, Data System 
Enhancements, Data Exploitation, and Information Services, and 
Facilities and Critical Infrastructure Improvements.
    As detailed in our report, between 2006 and the end of the decade, 
the number of operating U.S. missions will decrease dramatically and 
the number of operating sensors and instruments on NASA spacecraft, 
most of which are well past their nominal lifetimes, may decrease by 
some 35 percent. If present trends continue, reductions of some 50 
percent are possible by 2015.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Were this to pass, we would have chosen, in effect, to partially 
blind ourselves at a time of increasing need to monitor, predict, and 
develop responses to numerous global environmental challenges. Vital 
climate records, such as the measurement of solar irradiance and the 
Earth's response, will be placed in jeopardy or lost. Measurements of 
aerosols, ozone profiles, sea surface height, sources and sinks of 
important greenhouse gases, patterns of air and coastal pollution, and 
even winds in the atmosphere are among the numerous critical 
measurements that are at risk or simply will not occur if we follow the 
path of the President 2008 budget and the proposed out-year run out.
    Taking this path, we will also forgo the economic benefits that 
would have come, for example, from better management of energy and 
water, and improved weather predictions.\3\ Without action on the 
report's recommendations, a decades-long improvements in the skill in 
which we make weather forecasts will stall, or even reverse; this may 
be accompanied by diminished capacity to forecast severe weather events 
and manage disaster response and relief efforts. The nation's 
capabilities to forecast space weather will also be at risk, with 
impacts on commercial aviation and space technology.\4\
---------------------------------------------------------------------------
    \3\ In a typical hurricane season, NOAA's forecasts, warnings, and 
the associated emergency responses result in a $3 billion savings. Two-
thirds of this savings, $2 billion, is attributed to the reduction in 
hurricane-related deaths, and one-third of this savings, $1 billion, is 
attributed to a reduction in property-related damage because of 
preparedness actions. Advances in satellite information, data 
assimilation techniques, and more powerful computers to run more 
sophisticated numerical models, have lead to more accurate weather 
forecasts and warnings. Today, NOAA's five-day hurricane forecasts, 
which utilize satellite data, are as accurate as its three-day 
forecasts were 10 years ago. The additional advanced notice has a 
significant positive effect on many sectors of our economy. See 
statement and references therein of Edward Morris, Director, Office of 
Space Commercialization, NOAA, Hearing on Space and U.S. National 
Power, Committee on Armed Services Subcommittee on Strategic Forces, 
U.S. House of Representatives, June 21, 2006. Available at: http://
www.legislative.noaa.gov/Testimony/morris
062106.pdf.
    \4\ Ibid.
---------------------------------------------------------------------------
    The world is facing significant environmental challenges: shortages 
of clean and accessible freshwater, degradation of terrestrial and 
aquatic ecosystems, increases in soil erosion, changes in the chemistry 
of the atmosphere, declines in fisheries, and the likelihood of 
significant changes in climate. These changes are occurring over and 
above the stresses imposed by the natural variability of a dynamic 
planet, as well as the effects of past and existing patterns of 
conflict, poverty, disease, and malnutrition. Further, these changes 
interact with each other and with natural variability in complex ways 
that cascade through the environment across local, regional, and global 
scales. To cope responsibly with these challenges requires information 
about our planet; it requires us to expand our scientific basis for 
foreseeing potential changes and patterns, and this science is 
dependent upon expanded space-based observation. The needed new 
missions are set forth in the Decadal Survey; these missions need to be 
implemented in the coming decade.
    I would like to thank the Committee for inviting me to testify, and 
I would be delighted to answer any questions.
                                 ______
                                 
Prepared Statement of Otis B. Brown, Ph.D., Dean, Rosenstiel School of 
Marine and Atmospheric Science, University of Miami; Member, Committee 
    on Earth Science and Applications from Space, National Research 
                    Council, The National Academies
    Mr. Chairman, Ranking Minority Member, and members of the 
Committee: thank you for inviting me here to testify today. My name is 
Otis Brown, and I am Dean of the Rosenstiel School of Marine and 
Atmospheric Science, University of Miami. I am also a member of the 
National Research Council's Committee on Earth Science and Applications 
from Space.
    As dean of the Rosenstiel School, I have first-hand experience how 
satellite observations provide real-world results. Following Hurricane 
Katrina, imagery from our Center for Southeastern Tropical Advanced 
Remote Sensing (CSTARS) assisted relief and recovery efforts in New 
Orleans, tracking to see when and where flood waters had receded to 
increase the effectiveness of rescue efforts. Also pertinent to the 
environmental challenges presenting themselves in the Gulf states, we 
employed satellite imagery that identifies the rate of subsidence in 
the Mississippi Delta and New Orleans--equally invaluable information 
when making decisions about the reality and requirements of rebuilding 
in this area and long-term environmental challenges. This same imagery 
is what we use to monitor water levels in the Everglades and outbreaks 
of red tide. And, uses for satellite data only continue to grow as we 
learn to ``see'' phenomena like changes in sea surface temperature, sea 
level, and the size of polar ice caps. I cannot emphasize enough how 
vital satellite imagery has become to earth observation and 
consequently our ability to predict, plan, prepare, and respond.
    I've been asked to discuss my perspectives on the ``National 
Imperatives for Earth Sciences Research.'' This topic includes areas 
relevant to many parts of the Federal Government. My testimony today 
focuses on the roles of NASA and NOAA. It also addresses some resource 
and coordination issues for these two agencies.
    As you may know I have been part of the team that recently produced 
a decadal plan for Earth observations from space, which provides a 
prioritized roadmap. Our vision is captured in the following 
declaration:

        Understanding the complex, changing planet on which we live, 
        how it supports life, and how human activities affect its 
        ability to do so in the future is one of the greatest 
        intellectual challenges facing humanity. It is also one of the 
        most important challenges for society as it seeks to achieve 
        prosperity, health, and sustainability.

    As detailed in the NRC report, and further emphasized by the latest 
report of the Intergovernmental Panel on Climate Change (IPCC), our 
planet is faced with a number of significant scientific and societal 
challenges and their impacts on key parts of our society, economy, and 
health. The two-year study contained in the NRC report delineates how 
NASA's Earth Science budget has declined 30 percent since 2000, with 
more funding reductions planned as its priority missions of manned 
trips to Mars and a station on the Moon take further hold. The National 
Ocean and Atmospheric Administration (NOAA) likewise faces funding 
challenges with its National Polar-orbiting Operational Environmental 
Satellite System (NPOESS)--now 3 years behind schedule and $3 billion 
over budget. Additionally, many of the satellite system's advanced 
weather and climate instruments have been dropped to address cost and 
schedule challenges. Meanwhile, current satellites continue to age, and 
many of us foresee major shortcomings in satellite observations by the 
end of this decade that will undo much of the progress we have made in 
Earth observation and weather prediction.
    So, at a time when our need for understanding the Earth system and 
the need for Earth observations have never been greater, we are faced 
with declining investments in Earth Science, and, an Earth observation 
program that will significantly diminish in capability over the next 
decade.
    The first question the National Research Council committee had to 
address was the national capabilities for Earth observations. We were 
troubled by the answer.
    We found that the current investment strategies had led to a system 
at risk of collapse. That assessment was based on the observed decline 
in funding for Earth observation missions in NASA and the consequent 
cancellation, downsizing, and delay of a number of critical missions 
and instruments in both agencies. Since the interim report, matters 
have only worsened, with further cancellations, descopings and delays 
of NOAA and NASA satellite plans. This will result in an overall 
degradation of the network of Earth observing satellites.
    There are many potential consequences. Some examples are:

  <bullet> Weather forecasts and warnings may become less accurate, 
        putting more people at risk and diminishing the proven economic 
        value of accurate forecasts--this is particularly important to 
        this country since we must cope with many forms of extreme 
        weather, be it in the form of hurricanes, tornadoes, drought, 
        floods or winter storms.

  <bullet> Climate variability and the rate of change need to be better 
        quantified. Earth is warming because of a small imbalance 
        between incoming solar radiation and outgoing radiation from 
        Earth. Without the recommended measurements, we will not be 
        able to quantify how this net energy imbalance is changing, or 
        when or if the planet will stop warming.

  <bullet> Climate models have improved steadily over the years, but 
        are far from perfect and must be improved if we are to 
        intelligently cope with climate change. Satellites provide 
        unique observations of the Earth system and validate and 
        improve these models.

  <bullet> Sea level is rising and glaciers and ice-fields around the 
        world are melting, but we just don't know how fast these are 
        occurring. Without continuing quantitative observations 
        provided via satellites, we can't know how these rates change 
        or the implications for coastal communities.

  <bullet> Satellite observations could well be pivotal in resolving a 
        controversy about whether the frequency and intensity of 
        hurricanes are increasing; observations of the atmosphere and 
        oceans are essential.

  <bullet> The limited signals of cataclysmic activity come through 
        vigilant observation. That means the risk of missing early 
        detection of earthquakes, tsunamis, and volcanic eruptions will 
        increase.

  <bullet> The bottom line is: Earth Science is based fundamentally on 
        observations. While it is impossible to predict what scientific 
        advances will not occur without the observations, or what 
        surprises we will miss, we can be sure the rate of scientific 
        progress will be greatly slowed--perhaps even undone to some 
        degree. Without a doubt, it takes us backward rather than 
        forwards.

    Significant advances in hurricane forecasting over the past three 
decades have come from orbiting satellites that take timely, high-
resolution pictures and provide improved estimates of surface wind over 
the ocean. The satellite images are all over the TV for the public to 
view, but scientists, dissect them further. From sea level, sea surface 
temperatures and winds to red tide outbreaks and oil spills, satellite 
observations afford us a better, informed view of our Earth.
    The climate debate has been driven by debate over model 
capabilities and the lack of long-term critical observations relevant 
to climate. Many of the capabilities to make such observations exist in 
the research domain, but have not been transitioned into an operational 
setting. Our NRC report noted the difficulties in transferring NASA and 
NOAA research into operational use. That is because there is currently 
no process to include the necessary scientific input, resources and 
exploitation capabilities to either facilitate or to define this 
transition. Thus, we are seeing the winding down of the NASA Earth 
Observing System and its broad Earth observing capabilities and 
information delivery systems, with no apparent way for our Nation to 
harvest the fruits of this multi-billion dollar investment, or, to 
continue prototype research systems with proven operational value. The 
follow-on NOAA system, NPOESS, is late and more than likely will not 
overlap the NASA systems, and, most of the climate-related capabilities 
are not in its baseline. Put succinctly, much needed long-term time-
series of Earth processes required for decisions in this changing world 
will be lost. This is due to the lack of a functional relationship 
between research (NASA) and operations (NOAA) for Earth observing 
systems, and, a lack of resources in NOAA to address all of its Earth 
observing requirements.
    The challenge in Earth Sciences is that the breadth of study is so 
large that it's difficult to develop a set of priorities across 
disciplines. This is the first ever report to provide an integrated set 
of national priorities for Earth observing from space. It's equally 
difficult for anyone to imagine how it affects them individually. Often 
times, it seems we speak in a foreign language about solar irradiance, 
vector sea surface winds, limb sounding of ozone profiles and water 
vapor soundings from geostationary and polar orbits--perhaps this is 
not the clearest way for the public to understand how humans have 
become dependent on tools that reside in outer space.
    What is important to understand about the plan our committee 
recommended is that its financial requirements are not astronomical. In 
fact, implementing all of the recommendations requires only that we 
bring the program up to funding levels comparable to the year 2000. The 
plan we recommend calls for undertaking 17 new NASA and NOAA missions 
in the period 2008-2020, as well as restoring some of the capabilities 
lost on NPOESS and GOES, and revitalizing a few delayed NASA missions 
like GPM and Landsat. Our recommendations for NASA can be implemented 
in an extremely cost-effective manner. The Committee understood the 
financial constraints and therefore had to find missions capable of 
tackling several scientific questions simultaneously. The result is 
that we reduced the number of possible new missions from more than 100 
down to 17 broad-ranging, high-value, multipurpose missions. But to 
accomplish this, NASA's Earth Science budget must be restored to year 
2000 funding levels. We think this is very reasonable given the obvious 
societal needs and benefits.
    The truth of the matter is that this field of science is 
inextricably linked to our daily life and that of future generations. 
Climate variability and natural disasters are taking a significant toll 
on our economy, our environment, and our well being. And, that is why 
we must sustain the Earth observations that underpin national 
preparedness and response. Implementing these missions will not only 
greatly reduce the risk of natural disasters of all kinds to the people 
of our country and the world, they will also support more efficient 
management of natural resources including water, energy, fisheries, and 
ecosystems, and support the economy. Thus, the cost of the program is 
repaid many times over.
    The observing system we envision is affordable and will help 
establish a firm, sustainable foundation for Earth Science and real 
societal benefits through the year 2020 and beyond.
    Thank you for the opportunity to appear before you today. I would 
be pleased to answer any questions that you may have.
                                 ______
                                 
Prepared Statement of Dr. Michael H. Freilich, Director, Earth Science 
 Division, Science Mission Directorate, National Aeronautics and Space 
                             Administration
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear today to discuss the President's FY 2008 budget 
request for NASA's Earth Science program. I welcome the chance to 
discuss the important area of Earth Science, especially in light of the 
recently released National Research Council's Earth Science Decadal 
Survey.
    NASA's FY 2008 budget request includes $1.5 billion for the study 
of planet Earth from space. This represents an increase of $27.7 
million over the FY 2007 budget request, and will fund a wide-ranging 
and balanced program of activities, including: developing, launching, 
and operating Earth-observing space missions; competitively selected 
research and analysis science investigations conducted by NASA and non-
NASA researchers; Applied Science projects that help other Federal and 
regional agencies and organizations to efficiently use products from 
NASA Earth research to advance their missions; ongoing technology 
development efforts to enable the missions of the future; and, 
education and public outreach programs to make our knowledge of the 
Earth accessible to the world. NASA's budget request supports a 
balanced program, allocating over 30 percent of NASA's request for the 
Science Mission Directorate and within the Science Mission Directorate, 
allocating 27 percent of funding for Earth Science.
    NASA remains by far the largest single contributor to the 
interagency U.S. Climate Change Science Program (CCSP). Much of the 
science community's present state of knowledge about global change--
including many of the measurements and a significant fraction of the 
analyses which serve as the foundation for the recent report of the 
Intergovernmental Panel on Climate Change (IPCC)--is derived from 
NASA's Earth Science program. To list just a few examples, using data 
from Earth observing satellites NASA-supported researchers are: 
monitoring ice cover and ice sheet motions in the Arctic and the 
Antarctic; quantifying the short-term and long-term changes to the 
Earth's protective shield of stratospheric ozone, including the 
positive impacts of the Montreal protocols; discovering robust 
relationships between increasing upper ocean temperature and decreasing 
primary production from the phytoplankton that form the base of the 
oceans' food chain; and, using a fleet of satellites flying in 
formation (the ``A-Train'') to make unique, global, near-simultaneous 
measurements of aerosols, clouds, temperature and relative humidity 
profiles, and radiative fluxes.
    Our improved understanding of Earth System processes leads to 
improvements in sophisticated weather and climate models, which in 
turn--when initialized using the satellite data--can be used to predict 
natural and human-caused changes in the Earth's environment over time 
scales of hours to years.
    Importantly, near-real-time measurements from NASA research 
missions (including the Tropical Rainfall Mapping Mission, QuikSCAT, 
the Atmospheric Infrared Sounder instrument on the Aqua mission, and 
others) are used routinely by the National Oceanic Administration 
(NOAA) and other U.S. and international agencies to improve weather 
forecasting. Similarly, high quality measurements obtained by 
operational weather satellites provide essential context for the 
scientific analyses of the NASA research mission data.
    As of today, NASA is operating 14 Earth observing missions. Five 
more missions are quite far advanced in their development, and will be 
launched in 2008 and 2009. Of these, the National Polar-orbiting 
Operational Environmental Satellite System (NPOESS) Preparatory Project 
(NPP) and the Ocean Surface Topography Mission (OSTM) will continue 
critical Earth System and climate measurements that were initiated by 
the Earth Observing System (for NPP) and the TOPEX/Poseidon and Jason-1 
missions (for OSTM). The Glory mission will fly an instrument to extend 
our measurements of total solar irradiance, as well as an instrument 
that will provide unique, first-ever measurements of properties of 
atmospheric aerosols. The Orbiting Carbon Observatory (OCO) and the 
Aquarius mission will make new, first-of-a-kind global measurements of 
atmospheric carbon dioxide concentrations and ocean surface salinity--
both parameters of known importance to the study of climate change.
    The FY 2008 budget request also funds the reconstituted Landsat 
Data Continuity Mission (LDCM) for launch in 2011, and the Global 
Precipitation Measurement Mission (GPM) for launch of its Core 
spacecraft not later than 2013, followed a year later by launch of the 
NASA GPM Constellation spacecraft. Extending the pioneering rain 
measurements initiated with the joint U.S.-Japanese Tropical Rainfall 
Mapping Mission, and providing a calibration standard for several other 
rain-measuring instruments orbited by others, the GPM mission will 
provide us with accurate, global rain measurements much more frequently 
than currently possible. Knowledge of accurate rainfall rates and 
atmospheric water quantities is essential for the study of the Earth's 
hydrologic cycle and its sensitivity to climate change. In addition, 
the GPM measurements will be used by operational weather prediction 
agencies around the globe to improve weather forecasts and severe storm 
predictions.
    Even as we are acquiring and analyzing measurements today, we are 
planning the satellites, field experiments, scientific investigations, 
and Earth System models of the future. The recently released Earth 
Science Decadal Survey provides, for the first time, a scientifically 
based, community consensus statement of the top priority future Earth 
System Science problems to be addressed, and it suggests a sequence of 
notional missions whose measurements could contribute to advancing our 
understanding of the Earth and its environment.
    We welcome the Decadal Survey--indeed, we asked for it. NASA, along 
with NOAA and the U.S. Geological Survey (USGS), requested and funded 
the National Research Council (NRC) to conduct this first Decadal 
Survey in Earth Science. We formally made the request in the fall of 
2003 and the study began in earnest in 2004. The massive undertaking 
was only completed this January. We are grateful for all of the efforts 
of the Co-Chairs and NRC staff, the members of the Decadal Survey 
Executive Committee, and the literally hundreds of Earth Science 
researchers who volunteered their time and their ideas. Their success 
in creating scientific consensus across the broad and diverse Earth 
Science community is a substantial achievement.
    The science priorities identified by the Decadal Survey will be our 
primary guide as we design and select Earth observing missions to be 
flown in the next 10-15 years. In the space sciences, NASA has a long 
history of guidance by NRC Decadal Surveys. Indeed, even in the Earth 
Sciences where this is the first Decadal Survey, the President's FY 
2008 budget request for NASA was guided by recommendations included in 
the interim report issued by the Decadal Survey committee in 2005. The 
FY 2008 budget request includes funding and predictable launch dates 
for the Landsat Data Continuity Mission, the Glory aerosol and solar 
irradiance mission, and the Global Precipitation Mission, all of which 
figured strongly in the interim report.
    Unfortunately, the Decadal Survey arrived too late for its specific 
recommendations to influence the FY 2008 budget process, but its 
scientific priorities will be used in development of the FY 2009 and 
subsequent budget requests. NASA's FY 2008 budget request also includes 
funding for an additional, unspecified, competed flight mission, which 
will launch sometime around 2014. We will be guided by the Decadal 
Survey as we choose the scientific focus and instrument complement for 
this mission, starting no earlier than 2008.
    In addition to its science priorities and the notional mission set, 
the Decadal Survey provides several recommendations relevant to the 
design and implementation of the Earth Science flight program. Survey 
recommendations in the areas of international collaboration and 
technology investment deserve particular consideration.
    We all recognize that a constellation of missions and many 
simultaneous measurements--such as those obtained by the A-Train 
spacecraft described above--are needed to understand the interactions 
between Earth system processes. No agency or nation can afford to 
develop and fly all necessary missions single handedly.
    The Decadal Survey emphatically recommends international 
collaboration, to maximize humankind's benefits from our net investment 
in Earth Science, and to avoid unnecessary duplication. To this end, we 
have already begun discussions with our 5 closest international space 
agency partners: the Canadian, European, French, Japanese, and German 
space agencies. We have begun planning substantive bilateral meetings 
to be held this spring, to identify and refine areas of common interest 
and complementary expertise. We are also actively engaged--indeed NASA 
and the U.S. are leaders--in international coordination bodies such as 
the Committee on Earth Observation Satellites (CEOS) and the 
international Group on Earth Observations (GEO). As with our present 
OSTM, Aquarius, and GPM missions, we anticipate substantial joint 
projects with international partners as we construct missions to 
address the Decadal Survey's science questions.
    Science-driven technology investment is one of the keys to the 
design and implementation of any future mission set. It is essential to 
have the technology developed and tested in a relevant environment 
prior to the approval of any mission. This helps to avoid cost overruns 
that occur when problems arise with a new technology late in the 
mission development cycle. To foster advanced technologies for Earth 
Science, NASA's strategy is two pronged as recommended by the Decadal 
Survey, with both focused technology and core technology elements.
    Where we know the missions we want to implement and what new 
technologies are required on a certain schedule, we make focused 
investments to assure technologies are available when we issue 
competitive solicitations for mission formulation and development. This 
is done through the highly successful Instrument Incubator Program, 
funded under the Earth Science Technology Office, which matures 
instrument technologies for future measurements.
    The second prong addresses the seed corn or ``core technologies,'' 
for advanced Earth observing missions of the future. Where we know that 
certain classes of technologies are needed for the types of 
measurements we would like to make in the future, or are simply 
convinced that investment in certain sensor or detector technology 
areas will yield fruit, we will issue open, competitive solicitations 
for the best ideas. Examples include advanced component development 
(which allows scientists and technologists to take an idea from the 
concept to the bench top demonstration stage), laser risk reduction 
(which has developed fundamental lidar technologies applicable to 
multiple NASA missions), and advanced information systems technology 
development (which provides advanced operations technologies which aid 
in reducing future mission costs).
    The Decadal Survey, the U.S. Climate Change Science Program, and 
NASA's own planning in Earth Science all assume the presence of an 
operational system of environmental monitoring satellites that can make 
climate-quality measurements. The Nation needs such a system. That is 
why NASA is a member of the NPOESS governing body, and why NASA entered 
into a partnership with the NPOESS Integrated Program Office to develop 
the NPOESS Preparatory Project (NPP). NPP is designed both to continue 
essential measurements from NASA's Earth Observing System satellites as 
well as provide a demonstration of instruments to be flown on NPOESS.
    The Nunn-McCurdy-certified NPOESS program, as you are aware, 
focuses NPOESS on its weather mission and deletes many of the 
capabilities previously planned for climate science. It is thus 
important to recognize that the NRC's work is not yet done. As the 
Decadal Survey Committee was finalizing its notional mission set and 
sequence, the full impact of the removal of the climate sensors from 
the NPOESS program was just coming to light. In discussion with the 
NRC, NASA and NOAA have structured a follow-on activity wherein a 
subset of the Decadal Survey Committee, augmented by others they may 
deem necessary, would hold a workshop and provide input on how the 
agencies might mitigate the impact of the changes to NPOESS. We expect 
that the NRC workshop will take place no later than early summer, in 
time to provide recommendations useful for helping to determine the 
FY09 budget.
    NASA is proceeding with a mission roadmapping activity to determine 
the focus and content of our specific future Earth observing missions. 
The roadmap will integrate the scientific recommendations and priority/
sequence of the Decadal Survey, the joint and ongoing NASA-NOAA 
examinations of the NPOESS Nunn-McCurdy changes, and the contributions 
of our international partners. Through a series of concept studies 
conducted at NASA centers (some actually begun in anticipation of the 
Decadal Survey mission suggestions), we are carefully examining the 
Decadal Survey's notional missions. The studies are assessing the 
technological readiness, system engineering challenges, and expected 
costs (including support for scientific validation and analysis of the 
mission data) of each notional missions. These concept studies are 
accessing the full capability of the NASA mission design and costing 
apparatus, to complement the estimates assigned by the NRC. As the 
roadmap evolves, community involvement will be assured through regular 
interactions with the Earth Science Subcommittee of the NASA Advisory 
Council, as well as existing discipline- and science-focus theme 
working groups which regularly inform our plans and examine our 
progress within the NASA Earth Science Division.
    The roadmapping process includes the anticipated update later this 
year to the NASA Earth Science Plan. Indeed when the Congress asked the 
Agency for a Science Plan in the NASA Authorization Act of 2005 (P.L. 
109-155), you recognized that the Decadal Survey would not be available 
in time to influence the Earth Science portion of that Plan. Therefore, 
NASA was asked to describe how it might revise that Plan based on the 
Earth Science Decadal Survey. The roadmapping activity and the Science 
Plan will address that question.
    While the scope and specificity of the roadmap clearly must exceed 
that of the Decadal Survey and must accommodate issues of programmatic 
balance and national needs, it is definitively not our intention to 
redo the Decadal Survey or to change the scientific priorities that it 
identified.
    As with decadal surveys in other parts of the Science Mission 
Directorate portfolio, this Decadal Survey is only the starting point 
for planning. However, planning in Earth Science is even more complex 
than in other divisions, given the web of partnerships and users of 
Earth Science data, and its societal impact. Considering the long time 
horizon in the NRC's report, it will require several budget cycles to 
implement the program that we will derive from the Decadal Survey's 
near- and mid-term recommended mission sets. Nevertheless, our planning 
process starts with the consensus scientific priorities articulated for 
us by the NRC. So I will close by re-iterating my gratitude to the 
decadal survey committee Co-chairs and members for their excellent 
work. NASA's commitment to Earth Science research is commensurate with 
theirs.

     Table 1.--NASA Earth Science Missions Currently in Development
------------------------------------------------------------------------

------------------------------------------------------------------------
NPOESS Preparatory Project (2009)     Ensures continuity of several key
Strategic mission; Systematic          climate measurements between the
 measurement                           Earth Observing System and
                                       NPOESS. Implementation of the
                                       NPOESS Presidential Decision
                                       Directive of 1994. Joint mission
                                       with the NPOESS Integrated
                                       Program Office.
Landsat Data Continuity Mission       Ensures continuity of long-term
 (2011)                                global land cover change data.
Strategic mission; Systematic          Post-LDCM land imagery
 measurement                           acquisition by an operational
                                       agency is planned. Joint mission
                                       with USGS.
Ocean Surface Topography Mission      Ensures continuity of ocean
 (2008)                                altimetry data; planned as part
Strategic mission; Systematic          of a transition to operational
 measurement                           agencies. Joint mission with
                                       NOAA, CNES & EUMETSAT.
Glory (2008)                          Addresses high priority objective
Strategic mission; Initializes a       of the U.S. Climate Change
 systematic measurement                Science Program. Measure global
                                       aerosols & liquid cloud
                                       properties and solar radiation.
                                       Mandated by the Presidential
                                       Climate Change Research
                                       Initiative of 2001.
Orbiting Carbon Observatory (2008)    Nearing completion of development.
Competed mission; Earth System         First global measurement of CO2
 Science Pathfinder                    from space; small Earth Science
                                       mission.
Aquarius (2009)                       In advanced stage of development.
Competed mission; Earth System         First global measurement of sea
 Science Pathfinder                    surface salinity from space;
                                       small Earth Science mission.
                                       Joint mission with Argentina.
Global Precipitation Measurement      Recommended by 2005 interim report
 (2013)                                of decadal survey committee;
Strategic mission--Initializes a       extend spatial coverage to global
 systematic measurement                and temporal coverage to every 3
                                       hours with constellation.
Earth System Science Pathfinder; TBD  Focus and relative priority to be
 (2014)                                determined using decadal survey;
Competed mission                       solicitation no earlier than 2008
                                       for 2014 launch.
------------------------------------------------------------------------

                                 ______
                                 
 Prepared Statement of Nancy Colleton, President, Institute for Global 
   Environmental Strategies; Executive Director, Alliance for Earth 
                              Observations
Introduction
    Chairman Nelson, Ranking Member Hutchison, members of the 
Committee, special guests, ladies and gentlemen, I am Nancy Colleton, 
president of the Institute for Global Environmental Strategies, a non-
profit, 501(c)3 organization. Our efforts are devoted to furthering 
knowledge of the Earth system and promoting the value and use of the 
technology tools that help us better understand our changing planet. 
The Institute's efforts include everything from developing resources 
for K-12 science education and teacher professional development, to 
facilitating international cooperative activities in Earth Science and 
applications.
    I am here today representing one of our major initiatives, the 
Alliance for Earth Observations--an informal confederation of 
organizations devoted to promoting Earth observations for social and 
economic benefit. The Alliance has been a strong advocate of the 
importance of engaging the private sector (industry, academia, and non-
governmental organizations) in the planning of Earth observation 
systems, primarily the U.S. Integrated Earth Observation System (IEOS) 
and the multinational Global Earth Observation System of Systems 
(GEOSS).
    The Alliance membership is diverse and includes stakeholders such 
as system developers, data providers, geospatial technology firms, 
university-based research institutes, and a non-governmental 
organization that focuses on science applications for conservation. 
Since our effort began in December 2003, we have implemented an 
aggressive outreach effort to numerous business sectors (e.g., clean 
technologies, energy, agriculture, public health) to raise awareness of 
the importance of Earth observations. Attachment A includes a listing 
of the Alliance members. An Alliance Public Policy Statement on the 
Decadal Survey for Earth Observations is included in Attachment B.
    We are here today to examine one of the most critical tools of 
Earth Science: satellite observations. Whether we realize it or not, we 
all work in the field of Earth Science and benefit from satellite 
observations. Whether you are a policymaker, an investor, a farmer, a 
fisherman, or a truck driver, the Earth is changing and it is 
influencing our work, our decisions, our recreation, our resources, our 
economy, and our future. I am honored to participate in this important 
hearing, National Imperatives for Earth Science Research.
Response to the Report
    The purpose of today's hearing is to discuss the recent National 
Research Council report, Earth Science and Applications from Space: 
National Imperatives for the Next Decade and Beyond. I thank Drs. 
Berrien Moore and Rick Anthes on the leadership that they have provided 
as co-chairs of this study. I congratulate them and the other members 
of the Decadal Survey Committee on this exceptional report. As we all 
know, the quality and breadth of reports such as this don't just 
happen; they require a very dedicated and concerted effort.
    Quoting from the report, ``the United States' extraordinary 
foundation of global observations is at great risk. Between 2006 and 
the end of the decade, the number of operating missions will decrease 
dramatically and the number of operating sensors and instruments on 
NASA spacecraft, most of which are well past their lifetimes, will 
decrease by 50 percent.'' As my colleague, Governor Jim Geringer 
(former Governor of Wyoming) pointed out in his testimony on this topic 
on February 13th to the House Science and Technology Committee, ``That 
means a fifty percent reduction in today's already inadequate space-
based information systems. . . . It is difficult to maintain your 
vision from a crumbling vantage point.''
    I offer four primary observations to this Senate Committee for your 
consideration and deliberation:

  <bullet> The fact that the Decadal Survey Committee's vision for a 
        decadal program in Earth observations went beyond fundamental 
        science to consider ``increased applications to serve the 
        Nation and people of the world'' is a significant and much-
        needed shift in approach to the U.S. program.

  <bullet> The U.S. should buildupon our space-based Earth observation 
        programs and move forward with the U.S. IEOS--incorporating 
        space, aircraft, and in situ instruments, and the requisite 
        analytical capabilities.

  <bullet> Clear leadership is essential to resolve the issues and 
        attain the goals identified in the Decadal Survey.

  <bullet> The time to act is now.

Increased Applications to Serve the Nation and the World
    This year, we will celebrate the 20th anniversary of Our Common 
Future, the groundbreaking report of the World Commission on 
Environment and Development led by former Norwegian Prime Minister Gro 
Harlem Brundtland. The report begins as follows:

        In the middle of the 20th century, we saw our planet from space 
        for the first time. Historians may eventually find that this 
        vision had a greater impact on thought than did the Copernican 
        revolution of the 16th century, which upset the human self-
        image by revealing that the Earth is not the centre of the 
        universe. From space, we see a small and fragile ball dominated 
        not by human activity and edifice but by a pattern of clouds, 
        oceans, greenery, and soils. Humanity's inability to fit its 
        doings into that pattern is changing planetary systems, 
        fundamentally. Many such changes are accompanied by life-
        threatening hazards. This new reality, from which there is not 
        escape, must be recognized--and managed.

        Fortunately, this new reality coincides with more positive 
        developments new to this century. We can move information and 
        goods faster around the globe than ever before; we can produce 
        more food and more goods with less investment and resources; 
        our technology and science gives us at least the potential to 
        look deeper into and better understand natural systems. From 
        space, we can see and study the Earth as an organism whose 
        health depends on the health of all its parts. We have the 
        power to reconcile human affairs with natural laws and to 
        thrive in the process. In this our cultural and spiritual 
        heritages can reinforce our economic interests and survival 
        imperatives.

    It is insightful that, even in 1987, world leaders recognized that 
not only would space technology help us understand the Earth, but that 
it could also be a unique tool to better manage our planet for social 
benefit and economic interests.
    But, it is disappointing that despite this powerful text published 
20 years ago, we are gathered here today for a hearing examining the 
decline in U.S. space-based Earth observing capabilities.
    Since that time, our U.S. systems have focused primarily on 
answering scientific questions, with applications of this data and 
information as a secondary objective. And, although we have seen 
significant growth and impact of operational programs at the National 
Oceanic and Atmospheric Administration (NOAA) and the U.S. Geological 
Survey (USGS), science requirements are still what drive the 
development of our space-based systems.
    The fact that the Decadal Survey Committee's vision for an Earth 
observations decadal program went beyond fundamental science to 
consider ``increased applications to serve the nations and people of 
the world'' is a significant step and much-needed shift in approach to 
the U.S. program.
    We must recognize that the technologies that we are discussing 
today are the same technologies that:

  <bullet> Enabled us to track and forecast Hurricane Katrina;

  <bullet> Enabled us to discover and visualize the ozone hole;

  <bullet> Allowed us to detect the impacts of the Indian Ocean tsunami 
        and to determine the true extent of the devastation it caused;

  <bullet> Continue to identify receding Arctic glaciers; and

  <bullet> Were used by the Intergovernmental Panel on Climate Change 
        in their studies.

    Just last week, we again witnessed the benefit of Earth observation 
satellite technology to our nation:

  <bullet> NOAA weather satellites provided critical lead time for the 
        Southeast tornadoes (in some cases 12-55 minutes); and

  <bullet> NASA's MODIS (Moderate Resolution Imaging Spectroradiometer) 
        on the Aqua satellite enabled us to view the extent of dust 
        storms caused by high winds over Northern Texas (Dallas Morning 
        News and Houston Chronicle reported that downed power lines 
        left some 37,000 homes and businesses without power. Grass 
        fires were also reported).

    The benefits of space-based data will not end this week or next. In 
fact, the need for this type of information and the responsibility of 
the United States as a world leader to maintain and share this 
important capability will only increase with the stress of climate 
change.
    In a January 12, 2007, speech to the World Affairs Council, Lord 
Levene, Chairman of Lloyd's, provided a global insurer's perspective on 
catastrophe trends and climate change. He stated, ``We cannot risk 
being in denial on catastrophe trends. We can expect to see U.S. mega-
catastrophes with $100 billion insured losses soon. We urgently need a 
radical rethink of public policy, and to build the facts into our 
future planning.'' He added, ``The insurance industry will continue to 
play a vital role as enabler and rebuilder of the U.S. economy.'' U.S. 
satellite assets and the products provided as a result of space-based 
observations are critical to ensuring that insurance and other sectors 
have accurate and timely information.
    Not only should the United States strive to answer key scientific 
questions, but it should respond to the needs of a broad, non-
scientific user community, which relies increasingly upon operational 
missions by NOAA. By this I mean how can we ensure that our national 
research program and technologies are meeting the needs of 
policymakers, state and local water managers, energy executives, and 
emerging areas such as the carbon finance market? This will involve 
additional study and possible correction of our current research-to-
operations processes based on new engagement with the diverse and 
emerging user communities to provide more input to our national 
planning for new systems.
Move forward with IEOS
    Former Wyoming Governor Jim Geringer, who testified to the Senate 
Commerce Committee in April 2006 on drought and the need for integrated 
information, also wrote in November 2006 to the Office of Management 
and Budget to express the need to fund IEOS, the U.S. contribution to 
the multinational Global Earth Observation System of Systems (GEOSS). 
He wrote:

        Sir Francis Bacon coined the phrase ``Knowledge is power.'' 
        Today it's not about power but about empowerment as our country 
        faces many challenges. More than ever we need better data-
        driven decisions. The first essential part is observation, the 
        gathering of data. But we need more than data. Accurate and 
        timely observations become information that leads to knowledge 
        that enables decisions. We must reduce uncertainty to enable 
        better risk management for businesses as well as protect 
        citizens and save lives and property.

    In the December 2006-January 2007 issue of Environmental Finance 
Magazine, Vijay Gudivaka reported that ``Companies are working overtime 
to get a better understanding of their environmental impacts.'' The 
article discusses the need for more effective environmental data 
management and how companies are being challenged to develop data bases 
to better assess environmental, health, and safety information. 
Gudivaka writes, ``Whatever system is being used to collect and 
distribute environmental information needs to keep meeting the 
requirements of the business--or it has to change.''
    Without an established information infrastructure that builds upon 
our space-based Earth observation programs, we face many questions 
currently: Are our current systems meeting the needs of our businesses? 
Are our current systems protecting our citizens and property? . . . 
maintaining U.S. competitiveness? . . . ensuring that public and 
private sector decisionmakers, have, and will in the future have the 
information they need to respond to challenges like climate change? The 
Decadal Survey highlights the need to do more. My work with numerous 
business, academic, and non-government leaders also reveals that our 
systems must be improved to meet the requirements of business.
    Warren Isom, Senior Vice President, Willis Re Inc., and Board 
Member of the Weather Risk Management Association remarked at the Forum 
on Earth Observations last year, ``The weather risk market--in fact the 
risk-management business in general--has a profoundly strong interest 
in serious, systematic attempts to improve, expand and intensify the 
capture of data relating to our planet.''
    The current U.S. system must change to combine and integrate the 
valuable and extensive information sources and tools across all Federal 
agencies. This would create the IEOS, new interoperable systems that 
enable an unprecedented picture of our world, with a better 
understanding of intended benefits.
    The Alliance for Earth Observations believes that by embarking on 
the development of IEOS that the United States will:

  <bullet> Give its citizens the single most important and 
        comprehensive technology tool to monitor and respond to our 
        changing world, thereby protecting lives and property;

  <bullet> Give its Federal leaders and managers robust observational 
        data and models that are fundamental to performance 
        measurement, decision-making, and accelerating our 
        understanding of environmental processes;

  <bullet> Provide U.S. industry with the data needed to better manage 
        risk and resources, make transportation decisions, create new 
        business opportunities in environmental information products 
        and services, and thereby impact long-term environmental 
        sustainability;

  <bullet> Enable our country to remain the world leader in energy 
        development and management, agriculture productivity, marine 
        transportation, public health and other areas;

  <bullet> Support the global community by working in partnership with 
        other countries to share and integrate important data and 
        information; and

  <bullet> Give future generations the knowledge and tools needed to 
        leave a better world for each succeeding generation.

    IEOS will leverage Earth Science and technology for the benefit of 
U.S. citizens and the world. In the area of climate change, IEOS would 
provide accurate and timely observations as the foundation for guiding 
U.S. climate change policy, ensuring our Nation is moving in the right 
direction and providing the basis for knowing whether our policies are 
making the intended positive impacts we expect. The National Integrated 
Drought Information System (NIDIS), which is a key component of IEOS, 
would provide a proactive solution for U.S. citizens, delivering the 
``business intelligence'' needed to manage the risk of drought. 
Regarding energy security, observations are critical to both the supply 
and demand sides of energy. On the supply side, all sources of 
alternative and renewable energy are highly dependent on environmental 
data. These energy resources include hydropower, wind, ocean energy 
(tide, current, wave), biofuels, photovoltaics, and geothermal sources. 
On the demand side, environmental conditions largely determine the 
overall demand for power as well as the variability in demand. By 
funding the IEOS, the United States would provide a new level of 
service to the American people to prevent, mitigate or manage the 
effects of natural hazards through linked and interactive systems that 
provide the United States and the world with greater forecasting 
capability. Even in the area of public health, IEOS would lead to:

  <bullet> Improved air quality forecasting;

  <bullet> Improved and earlier recognition of harmful algal blooms;

  <bullet> Earlier recognition of the need for beach closures; and

  <bullet> A national water quality monitoring system that, for the 
        first time, would integrate disparate water quality systems 
        into one comprehensive system--a major step forward for the 
        United States.

    IEOS benefits can only be achieved through a common U.S. integrated 
information architecture. The benefits discussed in the previous 
paragraphs all depend on the development of a common observation and 
information system architecture for Earth observations. This 
architecture would facilitate information sharing between and among 
agencies as well as promulgate standards for terminology, data 
discovery, data access and transport, and service interfaces. This 
approach would enable our investment in environmental data, products 
and services to be leveraged by many communities of interest, 
generating value to both citizens and the economy through improved 
decisionmaking and incubation of a value-added market for environmental 
products and services. A robust and scalable architecture for an 
environmental enterprise would:

  <bullet> Leverage federally funded activities in other data-rich 
        domains;

  <bullet> Enable communities of interest to easily and transparently 
        access a variety of thematically diverse and geographically 
        dispersed assets; and

  <bullet> Enable any group or organization to easily connect their 
        assets into the enterprise in an interoperable fashion without 
        significant investment in information systems.

    IEOS would also advance the Global Earth Observation System of 
Systems (GEOSS), which is now supported by more than 66 countries and 
46 international organizations. This U.S.-initiated effort is intended 
to allow Federal interagency and multi-national coordination to assure 
that disparate environmental-related data systems here at home and 
abroad are interoperable and compatible. An effective IEOS effort 
should have clear designation of responsibilities, be enabled by a web-
based system that allows rapid communication, funded across agency 
boundaries with a clear purpose. IEOS/GEOSS would improve the 
capabilities for today's decisionmakers by providing new information 
products. That is not the case today. IEOS has neither been funded nor 
has program leadership been designated.
Clear Leadership Is Essential
    Clear leadership is essential to resolve the issues and attain the 
goals identified in the Decadal Study. The report before you calls for 
increased funding to improve our current national Earth monitoring 
capability. Yes, funding is important but the essential missing element 
is leadership. Scientific assessment, increased budgets, improved 
technical capabilities, and coordinated public-private engagement need 
designated, consolidated leadership. Critical elements including 
satellite and aircraft sensors, in situ instruments such as stream 
gauges, and geospatial information systems, have been fragmented among 
our Federal agencies, always a secondary mission, never the priority 
responsibility.
    Earth observation is not a priority mission for any designated 
agency at the cabinet level. Not within NASA, the Department of 
Commerce, the Department of the Interior nor any other Federal agency. 
The important technologies that enable us to measure climate change and 
identify and monitor the impacts to our environment, our lives and our 
livelihood are the sole responsibility of no one agency or person.
    Who should be the lead agency or position for U.S. Earth 
observation capabilities? What is our national vision for Earth 
observations? How are requirements from the Federal operational sector 
such as NOAA, USGS, USDA and EPA reflected in our research and 
development programs within NASA and NSF? Are requirements from the 
private sector being addressed?
    Without a designated lead, we will not see:

  <bullet> These critical assets protected;

  <bullet> A national Earth observations strategy that appropriately 
        addresses climate change;

  <bullet> The required investment for these programs appropriately 
        reflected in agency plans and budgets;

  <bullet> Our national investment fully leveraged for societal and 
        economic benefit;

  <bullet> The smooth transition from research to operations;

  <bullet> Our land-observing capabilities elevated to the level of 
        atmospheric and ocean observations;

  <bullet> An improved engagement between government and the private 
        sector (industry, Academia, and non-governmental 
        organizations);

  <bullet> The much-called-for integration of our national Earth 
        observation systems; and

  <bullet> The products needed to make the best decisions for our 
        country and future generations.

    As a first step, I support the report's recommendation that:

        The Office of Science and Technology Policy, in collaboration 
        with the relevant agencies, and in consultation with the 
        scientific community, should develop and implement a plan for 
        achieving and sustaining global Earth observations. Then a 
        single point of contact or program office at the Cabinet level 
        should be established to assure complementary rather than 
        duplicative or fragmented effort for all operational aspects of 
        Earth observation and analysis.

    I urge that the private sector--industry, academia, and non-
governmental organizations--be consulted regarding an integrated plan 
for Earth observations.
Time To Act
    As we are often reminded, time passes quickly.
    In preparation for this hearing, I reviewed numerous reports, one 
of which is noted earlier in this testimony and is entitled, Linking 
Remote Sensing Technology and Global Needs: A Strategic Vision. It was 
a report to NASA on applications. Ironically, the vision outlined in 
this 1987 report was as follows:

        The vision for the future is an Applications Information System 
        available to all users--whether a large government agency or 
        small local firm--that will provide overall benefits for the 
        public good and further economic interests of the United 
        States.

    What we knew 20 years ago, what the Brundtland Commission 
acknowledged in their groundbreaking report, and what we are reminded 
of today is that our nationally-funded Earth Science and operational 
technology programs are vital to our society and economy. If nothing 
else, I hope that the Decadal Survey will motivate you as policymakers 
and leaders to take action now--action to protect, leverage, and 
advance these assets so critical to protecting our nation, the world, 
and our future. Let us not 20 years from now simply acknowledge the 
words written by the Decadal Survey Committee, but rather be able to 
point to the Decadal Survey as a turning point for action and 
commitment to protect, further develop, and exploit these assets for 
benefit of the Nation and the world.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The Alliance was formed in 2004 to facilitate participation by the 
private sector--industry, Academia, and nongovernmental organizations--
in U.S. and international planning for Earth observations, especially 
as it relates to GEOSS. The Alliance for Earth Observations is an 
initiative of the nonprofit Institute for Global Environmental 
Strategies, a 501(c)3 nonprofit organization.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The Alliance for Earth Observations commends the work started by 
the National Research Council Space Studies Board Committee on Earth 
Science and Applications from Space in its recently released report: 
Earth Science and Applications from Space: National Imperatives for the 
Next Decade and Beyond. This important report sheds light on the 
declining Earth observation capabilities of the United States and lays 
out priorities for the next decade for Earth observations from space. 
This report offers the foundation of a roadmap to bring the U.S. Earth 
Observation capability in line with expectations for meeting the global 
change and climate policy challenges we see so frequently in the 
headlines. Science information is needed to inform policy, and the 
``Earth Science Decadal Survey'' as this report is called, points us in 
the direction we need to advance our national capability into the 21st 
Century.
    The members of the Alliance recognize the immense value to 
society--both in terms of economic benefits to our citizens and in 
meeting our responsibilities as stewards of our environment--of U.S. 
programs in space-based Earth observations. The Committee, capably led 
by Dr. Richard A. Anthes, President of the University Corporation for 
Atmospheric Research and Dr. Berrien Moore III, Professor and Director 
of the Institute for the Study of Earth, Oceans, and Space, University 
of New Hampshire, was comprised of an outstanding team of subject 
matter experts. In their report, they have provided a very valuable 
prioritization of scientific questions that need to be addressed along 
with recommendations for the space-based missions that should be 
developed and launched to provide the data needed to address important 
societal issues--in the near, mid, and far term.
    The Alliance recognizes the challenge in the current budget climate 
of augmenting funding for multiple agencies charged with executing the 
Nation's operational and research Earth observations programs. In the 
recently released President's Budget Request for Fiscal Year (FY) 2008, 
funding for satellite programs at the National Aeronautics & Space 
Administration (NASA), National Oceanographic & Atmospheric 
Administration (NOAA), and U.S. Geological Survey would not accommodate 
the recommendations of the report. The President's Budget, if enacted 
in FY-08, would enable NOAA to proceed with current acquisition plans 
for both the polar-orbiting and geostationary satellite programs, with 
their now-reduced instrument suites, and NASA to maintain momentum only 
on their current set of missions. The Alliance recognizes the 
importance of increasing U.S. Government funding to accomplish the 
recommendations in the report to advance our national Earth satellite 
programs. Funding would need to be implemented as top line budget 
increases, in order to not affect other important agency priorities.
    The Alliance agrees with the Decadal Survey and its predecessor 
reports from the National Academy of Sciences that current NOAA, NASA, 
and USGS budgets and programs do not include the programmatic structure 
needed to manage the research, development, and flight testing of new 
instrument technologies, and subsequent transition to operational 
missions, necessary to continue to evolve U.S. operational Earth 
observation capacity. Thorough technology demonstrations could have 
provided the risk mitigation needed to curtail decisions to cancel 
critically needed climate monitoring, ocean imaging, and advanced 
atmospheric sounding instruments from the NPOESS and GOES-R programs. 
Future plans and decisions can benefit from the report's 
recommendations to invest in developing next generation technologies 
and systems to reduce cost and schedule risks to operational programs. 
Implementation of the report's recommendation would be timely in 
addressing this longstanding problem.
    The Alliance for Earth Observations is a publicly and privately 
funded initiative of the Institute for Global Environmental Strategies 
to promote the understanding and use of land, air and sea observations 
for societal and economic benefit.
                                 ______
                                 

    Senator Nelson. So, Dr. Moore, do you consider the 17 
missions recommended in the survey an all-inclusive wish-list? 
Or do you consider it the minimum responsible complement of the 
measurement tools?

STATEMENT OF BERRIEN MOORE III, Ph.D., DISTINGUISHED PROFESSOR 
  AND DIRECTOR, INSTITUTE FOR THE STUDY OF EARTH, OCEANS, AND 
                   SPACE, UNIVERSITY OF NEW 
      HAMPSHIRE; CO-CHAIR, COMMITTEE ON EARTH SCIENCE AND 
    APPLICATIONS FROM SPACE, NATIONAL RESEARCH COUNCIL, THE 
                       NATIONAL ACADEMIES

    Dr. Moore. First of all, Senator thank you for inviting 
myself and my colleagues.
    I think, given what this planet is faced with--and you have 
articulated that well this afternoon--I believe it is the 
minimal responsible recommendation that looks at the challenges 
facing the planet.
    And it is not a wish list. We had a wish list--there were 
110 wishes put forth, with a lot of enthusiasm. And we cut that 
with NASA receiving 15, NOAA receiving 3, and one shared 
jointly, making a total of 17.
    I know it's expensive, but I believe there are ways that 
one can reach back to that restoration of $2 billion. It's 
certainly not going to be done in 1 year or 5 years, but 
there's a process that would be beneficial. I think it's a 
reasoned response to the challenges.
    Senator Nelson. What would be the impact if only a fraction 
of those 17 were implemented?
    Dr. Moore. Well, that would depend upon which fraction.
    For instance, let's suppose that we don't go ahead with 
Synthetic Aperture Radar that would give us the NSAR, the 
inframetric radar that gives us a much better understanding of 
earthquake potential. That's very valuable to this country, and 
very valuable to the planet.
    If we don't move forward with the recommended Aerosol 
Mission--we won't be capable of making aerosol observations 
when forests are burned, releasing tremendous pollutant loads 
of aerosols. Some of those aerosols actually lead to global 
cooling, many lead to global warming. So the only way to arrive 
at a balance is through observations of the aerosols.
    We recommended a CO<INF>2</INF> mission that would be 
active, that is, by using a laser that could determine the 
sources and sinks of carbon dioxide, all around the planet; all 
seasons, all latitudes. If we're going to manage the carbon 
cycle, we've got to have that information. If you give that up, 
then that's not there.
    So, that's why we looked across what we thought was the 
appropriate suite--we know it's a challenge. We know it's a 
challenge. And in this budgetary climate, it's a very great 
challenge. But, the planet is facing very serious issues that 
are not going to go away. Earthquakes are not going to stop, 
hurricanes are not going to stop, global warming is not going 
to stop.
    Senator Nelson. What specific actions do you think should 
be taken to improve the interagency collaboration on Earth 
Science missions that we seem to have had such difficultly 
with?
    Dr. Moore. Let me just go back to that from the point that 
you raised, that we have seen this decline in the NASA budget. 
And then we had a corresponding increase in the NOAA budget to 
accomplish the NPOESS and the new GOESS. Now, we have a perfect 
storm. We lost the money in the NASA budget, and the increase 
in the NOAA budget did not turn out to give us what we thought 
we were going to get, so it's kind of a lose-lose situation.
    I think that there was a history of NASA essentially doing 
the R&D side, including the oversight, as we went into an 
operational sensor. It cost money, but NASA has the talent--the 
Goddard Space Flight Center, for instance, has the talent to 
give that kind of independent, tough oversight. I'd like to see 
us move back to the system that we had in place that brought 
about the NPOESS program, and the earlier GOESS program. We had 
trouble back then, but not like today.
    Senator Nelson. Anybody else want to jump in on that set of 
questions? Agency cooperation, collaboration? Dr. Freilich?

        STATEMENT OF DR. MICHAEL H. FREILICH, DIRECTOR,

      EARTH SCIENCE DIVISION, SCIENCE MISSION DIRECTORATE,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Dr. Freilich. Sure.
    First, let me say thanks to Dr. Moore, and all of the rest 
of the people on the Decadal Survey for the thoughtful 
identification of the science problems, and the guidance that 
it provides. We welcome the survey, in fact, we asked for it in 
2003.
    We take the survey's recommendations very, very seriously. 
In fact, in the Fiscal Year 2008 budget request--that's before 
you--we are taking care in NASA of all of the precursor 
missions that were identified in the interim report, as well as 
the Decadal Survey.
    In the next 2 years, we'll be launching five key climate 
spacecraft, and two more after that, up through 2013. The two 
later ones are the Landsat Data Continuity Mission (LDCM), and 
the Global Precipitation Measurement Mission--all of those were 
highly rated in the Decadal Survey.
    So, we take that guidance extremely seriously, and we will 
be taking the guidance from the Decadal Survey, as the 
Administration puts together its Fiscal Year 2009 budget, and 
beyond.
    Relative to your question of interagency cooperation--it is 
a real challenge for this country, and it has been the 
challenge for some time. It's hard enough to design and 
implement and fly and validate and exploit the data from first 
copies of instruments, to then be able to do an interagency 
transfer, and have those measurements taken reliably on 
operational spacecraft, so that we can get the 30-year climate 
data records, which are essential--it's very, very difficult.
    In response, I believe to Congressional language in the 
2005 Authorization bill, NASA and NOAA are working quite hard 
together--we have a joint working group specifically focused on 
research to operations transition. While it is a challenge, and 
we haven't solved, certainly, all of those problems, or even 
many of those problems, I think we are strengthening the 
relationship between those two agencies. I'm new in this job at 
NASA, but it is certainly one of my very strong objectives, and 
a high-priority objective, for us to work much more 
efficiently, much more substantively together.
    Senator Nelson. Well, since you are relatively new to this 
position, I welcome you to get in and try to straighten out 
some of the problems between NASA and NOAA, and NPOESS includes 
the Air Force, as well, doesn't it?
    When Dr. Griffin was here last week, he questioned whether 
the Decadal Survey's cost estimates are too optimistic. Is 
NASA, Dr. Freilich, going to do its own estimates of the 
recommended missions, and share the results with everybody 
else?
    Dr. Freilich. Yes. We are embarking on an aggressive series 
of what we call concept studies, to look very, very carefully 
at the notional missions that were endorsed, especially the 
early ones, the highest-priority ones, from the Decadal Survey. 
The objective of these studies is to use the full costing and 
engineering analyses machinery of the NASA centers--JPL and 
Goddard, in particular--to address and understand the 
technological challenges inherent in getting the measurements 
that were identified by the Decadal Survey, and the full costs 
of these missions, including the launch vehicle, and 
especially, also, the science and the validation.
    We're moving aggressively forward on that now, now that we 
have the Decadal Survey's exact recommendations in terms of the 
measurements to be taken. When we have those engineering and 
cost analyses, we will much better be able to generate an 
integrated road map forward, taking into account the high-
priority science that was identified by the Decadal Survey, the 
issues of NPOESS, and the removal of the climate instruments 
pursuant to Nunn-McCurdy, that you so eloquently discussed. And 
the contributions, interest and expertise of our international 
partners. So, we intend, within the next 12 to 15 months or so, 
to have an integrated, well-understood, road map forward to 
make progress. We've done the precursor missions--or I should 
say, we are finishing the precursor missions, and then we'll be 
in a position to move forward on the high-priority science that 
the Decadal Survey guides us toward.
    Senator Nelson. And when do you think those cost estimates 
would be available to the Committee?
    Dr. Freilich. We are working on them now, and we are--as I 
said, looking carefully at each one of those notional missions, 
also understanding what we need to do, and can do, to mitigate 
the NPOESS climate problem. And I think in some months--
probably less than 6 months, we will have a fairly clear idea 
of the true full costs of those notional missions.
    Senator Nelson. Dr. Brown, you--OK, I'll get to Ms. 
Colleton in just a second--Dr. Brown, you've had some excellent 
testimony about Earth Science satellites, and Ms. Colleton. I 
want to ask you all about the impact of this research.

      STATEMENT OF OTIS D. BROWN, Ph.D., DEAN, ROSENSTIEL

           SCHOOL OF MARINE AND ATMOSPHERIC SCIENCE,

        UNIVERSITY OF MIAMI; MEMBER, COMMITTEE ON EARTH

              SCIENCE AND APPLICATIONS FROM SPACE,

       NATIONAL RESEARCH COUNCIL, THE NATIONAL ACADEMIES

    Dr. Brown. Thank you, Senator.
    Let me step back for a minute, and talk about a bit of 
history here, and it will frame my answer a little better, I 
think relative to impacts.
    The history from the seventies, eighties and nineties, is 
that each Earth Science community approached NASA individually, 
and said, ``OK, as oceanographers, we need this,'' ``As 
meteorologists or atmospheric scientists, we need this,'' ``As 
land-cover, land-use people, we need this,'' ``As climate 
scientists, we need this.'' And NASA tried its best in the 
Earth Observing System to respond in an integrated way to all 
of these different ideas, requests and needs.
    The Decadal Survey was very different, in the sense that, 
as has happened in astronomy and other disciplines with NASA, 
NASA asked the community, ``You know, you guys are all Earth 
Scientists, why don't you get together and give us your best 
set of integrated priorities, rather than us having to decide 
what the priorities should be of everything you've asked?'' 
That's a fundamental difference, and this downsizing of more 
than 100 different possibilities to the order of less than 20, 
is a result of--I wouldn't say smoke-filled rooms, not these 
days--but, you know, a lot of hard negotiation about saying, 
``How is it that we can really get the highest priority needs 
of the broad community on the limited set of missions?''
    So, this is a different set of mission requests than 
anything NASA has ever seen before. But, it had to be built on 
a base, and this gets into the impacts. The base is what's in 
space now, the Earth Observing System and a number of other 
prototype research missions that are flying, things that have 
to do everything from trying to measure tropical rain rates, to 
surface vector winds--many different, very unique sorts of 
missions.
    But all of these missions are neither research or 
operational really. In most cases, they were launched as 
research missions, but they found operational niches within the 
government and private industry, not only in this country, but 
globally.
    And so, we're in an interesting situation. How do we 
sustain these research missions that now have operational 
needs? Whether it's for trying to better locate a hurricane, or 
it's trying to better understand issues of drought or rain run-
off and floods in tropical regions. All of these results are 
coming out of, what you would think, looking at the title of 
the mission, was a research mission, not an operational one.
    So, that's a problem. There hasn't been a real functional 
mechanism to say, ``OK, we know it works, now how do we put it 
into a broader operational context?''
    So, one of the zero-order challenges for the Decadal Survey 
was, what's the foundation you build the future on? That's 
why--as you look at the high-priority missions, you might get 
what you think is a bit of a mixed message, because you hear 
people talking about NPOESS and climate sensors coming off of 
NPOESS and so on, and in fact, as you look at the projected set 
of missions from the Decadal Survey, it doesn't really give you 
a simple answer to that question.
    So, let me address the impacts. Impacts, I think, can be 
direct--operationally now, we're using surface vector winds 
from various different missions, actually, most all of them 
research, and in the hurricane community they've been shown to 
improve forecasts. Case in point--tropical rainfall measuring 
from space. Again, this is a capability that has had a strong 
impact.
    I think you could say that as you look at the breadth of 
this whole suite of missions from the mid-nineties to the early 
part of this millennium, that many of them have been moved into 
this quasi-operational context. But that context sits between 
what NASA has traditionally done, and what NOAA does, as its 
charter.
    So that's, why you won't get a totally straightforward 
answer to your question. I think it's demonstrable what can be 
done from space, it's demonstrable how long, I think, it'll 
last, but it's the ``Then what?'' question. And quite directly, 
in the Decadal Survey, we had to assume at the outset that 
NPOESS was going to happen on a certain timescale, with a 
certain implementation suite, and then go from there.
    And, I'd invite the co-chair, if he'd like to comment on 
this it was a very interesting and detailed, long-term debate 
within the survey, actually, about how to deal with a moving 
NPOESS suite of capabilities.
    Senator Nelson. Let me ask Ms. Colleton, what do you think?

 STATEMENT OF NANCY COLLETON, PRESIDENT, INSTITUTE FOR GLOBAL 
               ENVIRONMENT STRATEGIES; EXECUTIVE 
           DIRECTOR, ALLIANCE FOR EARTH OBSERVATIONS

    Ms. Colleton. I just wanted to make two points, my 
apologies, thank you.
    I just wanted to make two points in reference to the 
Decadal Survey. The first is that, I think what is most 
significant about the vision of the Decadal Program that was 
adopted by this committee that is primarily scientists, is that 
it went beyond looking just at fundamental science, and it 
looked at applications for the good of the Nation, and the 
world. And, I think this is a real much-needed shift as we see 
more and more private sector entities using this information. 
We're seeing new developments in our information technologies, 
that are making this information available to more people than 
ever before. Think of Google Earth, think of Microsoft Virtual 
Earth--and those are just the beginning. We will be able to 
access, and manipulate, and have decision-support tools like 
never before, in the future certainly.
    So, I think it's very important to recognize the essential 
part of applications. And, I agree with Dr. Brown, totally. 
When you look at, just for example, the TRIMM mission, the 
Tropical Rain Measurement mission--that mission is going on its 
10th year, I believe. It started out as a research mission, it 
was--its success criteria was 3 years, it's now in its 10th 
year. And it's very, very important to our hurricane 
forecasting. And it was some time ago--I think it was 2 years 
ago--that there was question as to whether NASA would continue 
to fund the operation of TRIMM, and NOAA was saying, ``But, we 
need those measurements for the upcoming hurricane season.''
    And so, there are going to continue to be those kinds of 
issues, until we have a clear research-to-operations transition 
plan for the Nation, which brings me to my second point.
    I think one of the things that has not been addressed by 
the Decadal Study that I really believe, as a country, we need 
to look at--and that's leadership. We recognize more and more 
how vital these systems are to our livelihood, our property, 
saving lives, I mean--being from Florida, you know well the 
importance of hurricane forecasting, and we still, you know, we 
see the kind of--the fact that we were able to evacuate 90 
percent of Southeast Louisiana with 40 hours advance notice 
with Katrina. That's better than we have ever been able to do.
    But, I believe that that transition where this information 
is no longer just available to the science community, but it's 
becoming more operational all the time, and we have our 
economy, is using this information and relying on this 
information more and more. I think it calls for a new look at 
how we're doing these programs, and leadership. Without 
leadership, these programs--the budgets for them--will never be 
protected. And, there will never be a long-term vision for, as 
a Nation, for what we should be doing in this area.
    Senator Nelson. Dr. Moore?
    Dr. Moore. Yes, let me pick up on that point. And, we had a 
specific recommendation--I should mention that the 
recommendation that we initially debated was how to reorganize 
the Federal Government, and we recognized we must be late in 
the days of the Committee to be reorganizing the Federal 
Government.
    And so we stepped back from that. And, and yet the 
motivation was precisely what's being stated--if you look at 
the way we've, if you will, managed the Earth-observing 
business in the United States, it has a checkered history.
    Now, take Landsat--it's been all over the place--the only 
place it's not been is the Senate of the United States--it's 
been in the Air Force, it's been in the U.S. Geological Survey, 
it went over to NOAA, back to NASA, back over to NOAA, back to 
NASA--this is observing land surface where people live. This 
should not be tossed around the Federal Government.
    The situation with NPOESS, clearly the lessons will be 
learned for many painful years. So, what we set forth was the 
fact that we felt that the Office of Science and Technology 
Policy has a unique opportunity in the next 2 years, in an 
Administration which, by definition, will not succeed itself. 
As far as I know, the Vice President is not running for 
President. So, you are almost in an apolitical time for OSTP. 
I'm from New Hampshire, we're not in an apolitical time in New 
Hampshire--but it is a different scenorio for OSTP to sit down 
with NASA and NOAA and the U.S. Geological Survey, with the 
Congress, and with the community and with the private sector, 
and say, ``What could we advise the incoming government in 
2008, to do about this Earth observing? Let's see if we can't 
get this thing on a more rational footing.'' It is not easy.
    I think the primary problem is that the capabilities of 
agencies do not necessarily line up with their 
responsibilities. I think that is exactly where we have this 
problem with NOAA. Their responsibility was for this next-
generation weather satellite. But they did not, necessarily 
have internal capabilities to manage something of that 
complexity.
    So, I believe we're going to have to really rethink the way 
in which we do business. It's just not working.
    Senator Nelson. Dr. Freilich, what about the expected gap 
between Landsat 7 and the Landsat Data Continuity Mission? What 
is going to be the scientific impact of that gap?
    Dr. Freilich. I'm not a land scientist myself, in fact, I'm 
an oceanographer, like Otis Brown here.
    However, we have looked, and are continuing to look quite 
carefully at that. Climate time series are things to be 
cherished, it takes 30 years to get a 30-year continuous data 
set. We are investigating with our international partners, what 
other data sources might be available for the relatively short 
amount of time between the potential demise of Landsat 7, and 
the plan for launch and operation of Landsat Data Continuity 
Mission, which will be in 2011.
    There are many, many other countries which are flying, or 
plan to fly, land-observing missions. Not all of them at the 
same level of radiometric accuracy, many of them at the same 
level of spatial resolution, and coverage, as we have. So, we 
are actively dealing in NASA with our international partners, 
to try and assemble, as best as possible, a data set of land 
observations to enable the climate science to continue, and to 
enable this time series, which we've invested so much in as a 
Nation, to continue to be able to serve the climate science, as 
well as other communities.
    Senator Nelson. By the way, if we didn't have enough to 
worry about, the Chinese now have the capability to knock down 
satellites.
    Let me ask Dr. Moore, are the new missions that are 
currently in NASA's pipeline, such as the Landsat Data 
Continuity Mission, Glory, and NPP, are they consistent with 
the Decadal Survey recommendations?
    Dr. Moore. Yes, they are completely consistent.
    And, I think that NASA had the interim report, which was 
released in April of 2005, as a basis to build the 2008 report. 
The interim budget dealt with the existing programs--Landsat 
Data Continuity, Glory, so forth, the ones that you've 
mentioned. And we said, ``We really need to get these on 
track,'' and the 2008 and 2009 budgets do that.
    NASA did not have, in preparation of the 2008 budget, the 
final report of the Decadal Survey, which looked at the out-
years, beyond the existing programs, which the 2008-2009 really 
address. And as a consequence, if we look at the run-out that, 
after 2009, things go negative again.
    I'm hopeful that Dr. Freilich leadership and with Alan 
Stern coming in, that in the 2009 budget, we will see that run-
out turn around, because the real recommendations of the 
Decadal Survey deal with these new missions that are the 
absolute--they are the ones that are dead critical, in terms of 
the problems that the Decadal Survey was looking at, whether it 
was earthquakes or climate or severe weather or droughts or 
greenhouse gases. They're the ones that address those issues.
    Senator Nelson. Dr. Brown?
    Dr. Brown. Two answers. One, as Dr. Moore said, the interim 
report jumpstarted the internal processes within NASA, so that 
they can address that particular suite of issues, including 
GPM.
    The outstanding problem, though, that is unaddressed--at 
least from my perspective right now--is the loss of climate 
sensor capability on NPOESS. We don't have an answer to that 
problem, in either agency right now.
    Senator Nelson. Are any of those projects what you would 
consider a lower priority?
    Dr. Brown. No. Actually, in terms of the Decadal Survey, 
no. And as you might imagine, there were a lot of hard 
negotiations that occurred to come up with that list. And there 
was a consensus across the panels on the final list, that these 
really were the -priority missions that needed to be looked at 
in the next decade. So, I'm on board with those, sir.
    Senator Nelson. Well, let me ask to any of you, if the 
Earth Science Program were to proceed along the current path, 
which is the bare-bones NPOESS and only the new missions in the 
NASA pipeline, what are the risks, explain to our Committee, to 
our Nation's coastal areas?
    Dr. Brown. The risks are multi-fold, some would happen 
sooner rather than later, Senator. The longer-term risks are, 
you'll have interruptions of climate quality data records in a 
number of areas, so you're going to lose continuity and have to 
restart climate records that you really don't want to lose, 
which are fundamental to look at long-term changes. For 
example, there are input solar irradiance versus earth 
radiation coming out, and understanding aerosol impacts. Those 
would be areas that could be at risk.
    Similarly you could--as you look at some of the other 
climate-quality instruments on the NPOESS suite, see 
interruptions in the climate part of the record.
    The other part, which is the direct impacts has to do with 
the slips in NPOESS, what is that going to mean to polar 
orbiter, visible and infrared mapping coverage of the globe. We 
don't know that yet, because we don't know what that interval 
might be. But, if there is some interval, with much-reduced 
coverage, that's going to undoubtedly have societal impacts, 
because that's a primary sensor for many different sorts of 
warnings that might be put out.
    An area that I would specifically focus on has to do with, 
as we look at sea level rise globally, and all of the aspects 
that go into observing and forecasting it. It includes such 
esoteric things as trying to map out polar ice extents--and 
thickness, and so on. Which parts of those capabilities that 
will be diminished is going to have an impact, as we try to 
look at sea level rise? It's going to mean errors, the error-
bounds or our confidence in estimating these will change, for 
example. Thank you.
    Senator Nelson. Ms. Colleton, what do you think? How's this 
going to affect ordinary Americans? Not necessarily on the 
Coast, but if you want to talk about the Coast feel free.
    Ms. Colleton. Well, I think one of the important things 
that we have to consider is if, if there is a question about 
our space capability in the future, we have to look at other 
options. And, we've yet to talk about aircraft and in situ 
measurements, and how important those are. And one of the 
things that, clearly we're beginning to start is the 
implementation of the Integrated Ocean Observing System, and 
all of the regional associations across the country that do 
coastal monitoring, et cetera. There was money in the 
President's Fiscal Year 2008 budget to begin that process, I 
don't think it's enough money, but programs like that will grow 
in importance, if those space capabilities are not available. 
And I think they--and the fact that we need to look at more of 
the integrated information between space, aircraft, and in situ 
information, and develop an integrated Earth Observing System 
that would have all of those capabilities, is very, very 
important.
    Senator Nelson. Just as an aside, one of the aircraft 
capabilities of NOAA is the G-4 that flies at 40,000 feet plus, 
and tracks hurricanes. It's given them a 15 percent greater 
accuracy in prediction of hurricane paths, with the resulting 
additional early warning. That's a single-point failure, we 
don't have a backup aircraft. And I've been trying to beat the 
door down for the last several years about, ``Well, you only 
need it for 6 months of the year, try to figure out when and 
where another agency could use it for the other 6 months. You 
can share it.'' But, I just spoke to the number two guy at 
NOAA, and they're not going to. They don't have any plans to 
come forward and request this. It's just another indication of 
what you said, Ms. Colleton.
    Ms. Colleton. And, again, I think it elevates the 
importance of taking a comprehensive look--not just at our 
space programs, but our U.S. common information infrastructure 
that we're using, the in situ measurements we have, and 
aircraft. And looking to have someone responsible within our 
government to look at the whole picture, and determine if it's 
appropriate or accurate for the challenges that we face.
    Dr. Moore. Senator, could I just elaborate?
    Senator Nelson. Please, please.
    Dr. Moore. The question that you asked--if we didn't go 
ahead with the recommendations of the Decadal Survey, and we 
are living with the highly reduced NPOESS program, what would 
be some of the things that you wouldn't have? Well, we wouldn't 
have good measurements of ice sheets. We know that ice sheets 
are changing. We know the changes in ice sheets lead to changes 
in sea level. So, we would not have that.
    Second, we wouldn't have good measurements of sea level. 
One of the missions that we recommend deals with instruments 
that not only will measure sea level, but will also measure 
lake levels, as well as major rivers. We wouldn't have that 
information.
    In the GOESS program, they have eliminated the Coastal 
Waters Imagery. In the Decadal Survey, we recommended a mission 
that would not only handle coastal waters, but also air 
pollution, the measurement of air pollution.
    So, when you start down the list, I think the coastal 
communities are living right at the tipping point. And the 
recommendations that we've made were looking very much at the 
issue of, what are the applications? Who are the people at 
risk?
    Soil moisture--this is a major issue for coastal areas. 
There will be far less capability on the NPOESS mission than 
was planned. One of the missions that we recommended was to 
directly measure soil moistures.
    So, I think that we've tried to identify priorities by 
looking at these critical populations, and certainly the 
coastal community is amongst the most critical population, 
particularly viewed worldwide.
    Dr. Freilich. I would just like to point out that we 
presently are flying 14 Earth-observing satellites. We've 
talked a bit about sea level, and that is certainly one of the 
triumphs--we have accurate measurements of global sea level 
that started with the TOPEX-Poseidon joint NASA-French Space 
Agency Program. Presently, the Jason-1 altimetry mission is 
flying, and the very first of the new missions that are in the 
budget to launch--and it will launch in 2008--is a yet another 
follow-on--the Ocean Surface Topography Mission. So, we have 
focused on very, very high priorities, and ocean surface 
topography, at least, is one global time series which is going 
to continue at extremely high accuracy, with good overlap 
between sensors.
    Senator Nelson. Ms. Colleton, how do state and local 
government use the data from these satellites?
    Ms. Colleton. They use it in a variety of ways. I think 
probably the best example is in looking at drought, the drought 
monitor that's available, you know we're experiencing a 
terrible drought right now in Texas, and last week alone there 
were terrible dust storms, 35,000 homes and businesses without 
power, as a result.
    But, the satellite data is put into systems, information 
systems, that allow anyone, anywhere to access it. They can do 
this through the University of Nebraska at Lincoln, go to the 
drought monitor and determine what the outlook is, what's 
currently happening, what the outlook might be for a few weeks 
ahead.
    So it's not only with drought. One of the most exciting 
things that we're beginning to see in the area of applications 
is the relationship between environmental information, and 
public health. And again, it's just an emerging thing. But we 
can look, for example, at malaria, and look at parts of the 
world, for example, that may have characteristics that might 
promote the next malaria outbreak. How is that helpful? Because 
it helps NGOs get medicine to certain parts of the world, 
producers to distribute it, et cetera.
    One other area that I think will be very, very important 
with emerging applications of remote sensing, or satellite 
Earth observations is that we--again, we're just beginning to 
look at--is the application of this information to the carbon 
finance market, and how this technology becomes an innovation 
for climate change. We're looking at renewable fuels, we're 
looking at emission reductions, but are we looking at Earth 
observations and how it can be used?
    I mean, for one, for example, just in monitoring, it will 
show us whether or not our policies are working. So, I think 
for state and local government leaders, this information has a 
lot of applications.
    Senator Nelson. Dr. Freilich, why don't you give us some 
commentary on why you think NPOESS has had so many problems? 
What has NASA learned about the structure, so we can apply it 
to future collaborations?
    Dr. Freilich. An excellent question, Senator.
    NPOESS is a step forward from the Earth Observing System 
that NASA was flying and from the operational weather 
satellites that NOAA and the Department of Defense separately 
had been flying, and are flying right now.
    In some instances, the instruments that were anticipated to 
fly, or that were chosen to fly on NPOESS were quite mature, 
and we had built them, NASA had often demonstrated their 
capabilities, and their utility, and they transitioned well.
    For instance, on the NPOESS Preparatory Project, one of the 
instruments, the so-called ATMS, Advanced Technology Microwave 
Sounder instrument, is in good shape. The technology is moving 
along, it was mature, it is, in fact, already integrated onto 
the spacecraft.
    In some other areas, I think that corporately, we were 
reaching rather far. We were attempting to get to the next 
generation of instruments to fly on an operational spacecraft, 
when perhaps we had not fully examined the technology, and the 
implementation issues associated with them in the context of 
research missions. Historically, NASA did the research 
missions, as you heard previously from my colleagues. Many of 
our research satellites, virtually all of them, provide data in 
near-real-time. And, those measurements originally flown for 
research purposes, when they demonstrate their utility, are 
then used routinely in operational numerical weather 
forecasting, marine hazard warning, et cetera.
    So, that was the process that we had, and I think that we 
jumped a little bit, perhaps, in our eagerness to get a truly 
outstanding operational constellation of instruments. And in my 
personal opinion, that is not quite the way we had shown it in 
the past, and the way in which we had experience.
    Senator Nelson. Do you think it can meet its revised cost 
schedule and technical goals?
    Dr. Freilich. NASA is a partner in the NPOESS program as a 
technology provider. In the short time I've been here, I've not 
had the time to study the details of where we are in NPOESS as 
a whole. I think that the Nunn-McCurdy recertification focuses 
NPOESS on its weather forecasting capabilities, and based on 
the analyses that went into that, we will be able to achieve 
those capabilities, that performance.
    As far as climate goes, I think that the Nunn-McCurdy re-
certification is fairly honest, and it says that, given the 
resources that are available, we should not be focusing on 
climate measurements, and therefore, we as a country have to 
look at how to mitigate the removal of those measurements. It's 
not that we shouldn't focus on climate, but this program can't 
afford to focus on climate. We should look to see how to 
mitigate the impact of removing those sensors, but get the 
measurements flown in different ways. And, we're actively 
working with NOAA and other portions of the government through 
OSTP, in particular to try to come up with mitigation 
strategies. That will feed into our integrated road map that I 
talked about previously.
    Because, the science and the societal impact that were 
identified in the Decadal Survey really requires a background 
context, if you will, of measurements that we had thought were 
going to be obtained from NPOESS, and if they're not obtained 
from NPOESS, we still have to make those measurements in order 
to advance our Earth-system science.
    Senator Nelson. Are there particular problems that you 
think we ought to be on the lookout for?
    Dr. Freilich. Sorry, I don't quite understand the question, 
whether it's----
    Senator Nelson. In the revised cost schedule and technical 
goals? Do you think we can meet them all, or are there going to 
be some problems that we ought to be looking for?
    Dr. Freilich. Every space mission that I've been associated 
with and that I've known about, has had challenges associated 
with it. There are clearly two instruments on the NPOESS 
preparatory project--the VIIRS instrument and the CRIS 
instrument, which at the moment, represent, quite significant 
technological challenges. They are not NASA-provided 
instruments, I might point out, but they're critical 
instruments for the science that has been identified, and for 
the societal impact that we would like to extract from this 
national investment.
    Senator Nelson. Do you think the NPP will fill the gap 
between EOS and NPOESS?
    Dr. Freilich. NPP, as well as international partner 
contributions, in particular, EUMETSAT and the MetOp series of 
spacecraft, and the instruments and spacecraft that we have in 
the Fiscal Year 2008 budget will bridge the gap. Those seven 
missions that I talked about that will launch out between 2008 
and 2013 which, by the way, not only includes the Ocean Surface 
Topography Mission, but also the orbiting carbon observatory 
that Ms. Colleton talked about, which is also going to launch 
in 2008. Those missions--and the ones that we're flying now--
will certainly not only continue, but expand the range of 
variables that we're presently measuring, and then the question 
just becomes a programmatic one, of when the follow-ons take 
place. Now that we have the clear guidance from the Decadal 
Survey, we can begin to build those integrated programs.
    Senator Nelson. Dr. Moore, you want to talk to us about 
projects that were dropped from NPOESS, and tell us what you 
think about the status of them, then Dr. Freilich, why don't 
you comment on that and to what degree you think you're going 
to be able to get them in the budget?
    Dr. Moore. Well, there are several. I'll begin with the 
less expensive ones. Perhaps they could come back into the 
budget via NOAA. And these are very important for climate.
    The total solar irradiance monitor--this monitors the solar 
output--was dropped. And, the instrument to measure the energy 
coming off of the planet was dropped. Now, if you're going to 
do climate work, the concern about climate is the change in the 
energy balance, because of the greenhouse gases. You've got to 
have the total solar irradiance, and you've got to have the 
energy coming off the planet--those are of the first order. The 
Decadal Survey recommended those back to NOAA because we felt 
that--not only were they important, but they were not budget 
breakers. In fact, I think it would probably be in the noise of 
the uncertainty about the NPOESS budget. So, that would be a 
very clear recommendation.
    The other was the altitude distribution of ozone in the 
atmosphere. That was eliminated--they were going to continue to 
measure the total amount of ozone in the column of air, but not 
see in detail, the altitude. We really need to understand that. 
So those are three things that we felt could be put back on the 
NOAA side.
    On the other aspects, it appears that there will probably 
be far less capability of measuring soil moisture. And 
therefore, one of the early recommendations to NASA was a soil 
moisture mission. Now, this is a good example of where I think 
a NASA mission does not fulfill the NOAA and Air Force 
responsibility. This would be a scientific mission, but there 
will have to be the capability of taking the data from this 
scientific mission and incorporating that into the operational 
side of NOAA and the Air Force.
    What worries me, is that in the reduction of the budget for 
NPOESS, there will be a loss of that capability to utilize that 
data for operational purposes. So, we're recommending a wide 
swath altimeter, to look at ocean altimetry, sea level height, 
as well as rivers and lakes. The altimeter was lost from the 
NPOESS mission. This is a recommendation to NASA, but once 
again--will there be the capability of utilizing this data?
    Finally, the NPOESS mission was advertised, and still is 
advertised, as not only a weather mission, but a climate 
mission--the instruments are said to have climate capability, 
that means that they're very stable, they make a very precise 
and accurate measurement.
    Well, the NPOESS program has something they call ``weather 
centrals.'' These are the places that the data is processed for 
weather prediction purposes. Where's the climate central? In 
order to produce climate data records, as Mike Freilich said 
very well, to produce these long time series, they require data 
that is often reprocessed three, four, five times. The reason 
for that is, instruments age--(just as we age)--and performance 
changes. So, as the instrument changes, the algorithms that 
process the data need to be changed. The algorithms need, for 
climate signals, to be the very best we can get--not the 
fastest. For weather purposes, speed is everything. So, where's 
the climate central? Despite our very clear recommendation in 
the interim report, and again in the final report, we've never 
had NOAA respond to that. Yet, if you're going to have a 
climate mission, you need to produce climate data.
    So, first of all, I think there are serious issues with 
respect to the instruments. Second, we've tried to make a 
recommendation to NOAA on these energy balance issues--some of 
the measurements that we've recommended to NASA are high-
priority measurements, third, there will still be the cost of 
ingesting this data, and finally there's the issue of the 
climate central.
    Senator Nelson. What do you think, Dr. Freilich?
    Dr. Freilich. OK, let me go down the list that Dr. Moore 
presented.
    We've already talked about ocean surface topography and 
altimetry, the OSTM mission will be launching in 2008. Dr. 
Moore mentioned the radiation balance, and in particular, the 
total solar irradiance. The Glory mission, which we'll launch 
at the end of calendar year 2008, is in the final stages of 
implementation now. It has two instruments on it. One of them 
is an aerosol polarimetry sensor, but the other is a total 
solar irradiance sensor. So, that mission is funded, will be 
launching at the end of 2008, or the very beginning of 2009--
and that will continue that extremely important time series. 
Which, by the way, requires absolute overlap of the 
measurements. We, unfortunately are not in a position where we 
can build total solar irradiance instruments which have 
sufficiently good absolute accuracy to tolerate a gap. But, we 
have a TSI, a Total Solar Irradiance instrument, which will 
launch on the Glory mission, and that one is good.
    As far as the Earth Radiation budget instrumentation, the 
CLARREO mission, as Dr. Moore pointed out, is a joint set of 
measurements between NASA and NOAA. It is one of the 
potentially lower cost missions, we're looking at it carefully, 
and certainly one of the high-priority science ones, and we'll 
be looking very carefully--it's one of the four earliest 
missions that the Decadal Survey recommended, and we'll be 
looking very carefully and be guided by the Decadal Survey, as 
I've said many times, in putting together our integrated plan. 
So, it's going to be quite high up, in our focus early on.
    Senator Nelson. And what year do you think that will come 
in?
    Dr. Freilich. I can't say right now, because we have to put 
the plan together, and it has to account--as I said before--for 
all of the measurements that are required to advance the 
science. We need to be able to balance the resources that are 
available with all of the measurements that we need, including 
the new measurements for the Decadal Survey science, such as 
soil moisture, and the context measurements that would have 
been provided by NPOESS, had it gone as expected. So, as in so 
many other things that we do--and as is emphasized so strongly 
in the Decadal Survey, where they talk about balance between 
disciplines, and balance between research and flight projects, 
and balance between airborne and in situ measurements--we have 
to deal with balance for the Nation, certainly, for NASA, and 
inside the Earth Science Division. But that's the whole point 
of our integrated roadmap, which we are embarked on right now, 
given the clear objectives that have been set out by the 
Decadal Survey.
    I might also point out, sir, if I can, that the Fiscal Year 
2008 President's budget requests funding for a mission--a 
competitively selected, unspecified Earth Systems Science 
Pathfinder mission--that is a medium-sized mission and will 
launch in approximately 2014. As part of our integrated 
roadmap, we are taking that line into account. So, I think 
that, an answer to your question is that, when we put the 
integrated roadmap together, there is money in the President's 
budget for a medium-sized mission to launch in 2014, and the 
question is, precisely what scientific focus should it have?
    Senator Nelson. Would it consider the other two that were 
left off, for the measurement of the soil moisture and for the 
altitude distribution of ozone?
    Dr. Freilich. Let me deal with them separately. The 
altitude distribution of ozone is a relatively small and 
relatively mature technology that we have. In fact, the total 
ozone and the atmospheric profile were supposed to be two 
instruments originally, but that were closely linked to each 
other, and we will look very, very carefully at getting that 
one flown rapidly.
    That is not in the same class of investment technology, or 
anything else that we're talking about for the other ones.
    In terms of soil moisture, there are a number of 
possibilities that were laid out in the Decadal Survey and they 
dovetail, actually, fairly well in some cases with the Global 
Precipitation Measurement Mission. And we're looking carefully, 
as I keep saying, at an integrated approach to make the best 
use of the resources that we have--so that if we can, in fact, 
overlap some of these and kill multiple birds with fewer 
stones, we're looking very, very, carefully at doing that.
    NASA's contributions to the Global Precipitation Mission 
has two parts to it. The first is a core spacecraft, joint with 
our Japanese Space Agency partners, that will have a couple of 
different instruments on it--an active precipitation radar, and 
a passive radiometer. That will launch in 2013. In 2014, 
however, this budget line includes the so-called GPM 
Constellation spacecraft, which we need in order to get the 
good, accurate global precipitation measurements, that GPM as a 
unit, is intended to provide.
    However, the radiometer that is on that spacecraft may, 
perhaps, be able to be adapted, enhanced, whatever--I don't 
want to do design in front of the Senate, in fact, I'm not even 
capable of doing design in my office, being an oceanographer. 
However, those are the sorts of questions that we're asking 
ourselves, as we put together the integrated roadmap--how best 
to get the measurements that we need that advance the science 
with the resources that we have available.
    Senator Nelson. And what about the idea of weather centrals 
becoming climate centrals, as Ms. Colleton mentioned?
    Dr. Freilich. I'm not sure that I heard that weather 
centrals should become climate centrals, what I heard Ms. 
Colleton and Dr. Moore say, was that capability, that function, 
must be recognized as scientifically and societally very 
important. NASA, in general, does not do that sort of work, 
because that's an operational kind of capability. However, we 
really, really need it in order to advance both the science and 
the societal impact.
    Senator Nelson. Ms. Colleton, do you want to expand on 
that?
    Ms. Colleton. I think that Dr. Moore said it appropriately.
    Senator Nelson. Turn on your mike.
    Ms. Colleton. Sorry--I'll learn by the time this hearing is 
over, to turn on my microphone, I apologize.
    But, I think Dr. Moore said it accurately--the way that the 
NPOESS program is structured right now, there is this focus on 
weather centrals, that rely and push for speed in delivery, 
where the climate centrals aren't being considered at this 
point, and those require more sensitive types of 
instrumentation, and processing.
    Is that correct, Dr. Moore?
    Dr. Moore. I think that, the weather centrals have their 
job, and it's best to let them focus on that job. A climate 
central needs a different oversight, a different scientific 
oversight, it requires advanced computing--as does the 
weather--but perhaps it should be structured differently, and 
separated from the task of the weather centrals.
    Our concern is that, right now, it's not in the budget, it 
doesn't appear to be in the planning, speaking to NOAA, and I 
do not see any way to simply try to piggy-back it on something 
else. I think it's a very serious enterprise, and it's not 
being addressed.
    The other comment I wanted to make was when I addressed the 
issue on the solar monitoring and so forth--I was taking into 
consideration that NASA on the Glory mission gets us to about 
2013 with this solar monitoring. But then it stops, because 
it's deleted from the NPOESS mission. So, our recommendation is 
that, it's not expensive, it is highly important, as Mike said, 
you've got to have it overlap with whatever is on-orbit at that 
time, making that measurement, because you need to get a 
consistent time series. And therefore, it was natural to put it 
on, put it back on the first NPOESS spacecraft.
    But, it requires resources. And what I'm afraid of is, the 
NPOESS situation is not in closure yet, and we may see 
additional pressure on the program, and therefore there will 
not be the ability to respond to these very real needs that 
we're going to have. And I just don't see how they're going to 
be met, unless things change.
    Dr. Brown. Senator, a final comment from me on that. Let's, 
and, go back to the earlier discussion that we had on the 
Decadal Survey committee. And that was that, you know, should 
you restructure the Federal Government to deal with these 
challenges of the NPOESS program?
    What you see, though, is when restructuring had to happen 
because of Nunn-McCurdy, there was no climate sponsor to step 
up and say, ``That's my responsibility I want to preserve that. 
Here's a budget to do that.'' That, I think, is a fundamental 
issue as we move into this new suite of satellites. Who is 
going to be the climate sponsor for Earth Observing Systems? I 
don't know what the answer is. I'm not going to presume that, 
but I do think that is the question.
    Senator Nelson. Any further comments from any of you all? 
Yes, ma'am?
    Ms. Colleton. If I could, we've spent a lot of time talking 
about NPOESS this afternoon. But I think, again, we have to 
consider, NPOESS is supposed to go through 2024, and are we 
considering what follows? Or, are some of these missions that 
are getting set back longer and longer times. Again, I would 
call--I would hope that you would call--for a long-term 
strategy for Earth observations. We do not have one. We do not 
have a national strategy, we need to address these climate 
questions, it's imperative, and I would hope that you would 
call for such an action.
    Senator Nelson. Dr. Moore, you were about to say something?
    Dr. Moore. Yes, one final comment--I recognize that when we 
put forth 17 missions, and say we need to get back to the year 
2000, that's a major step. We could have classed those 
missions, grouped them into three large spacecraft, and said 
we're only recommending three missions. We thought we were 
recommending a more robust strategy by breaking it up.
    So, let's think about how we might exploit that robust 
strategy. Mike Freilich has spoken, I think, very positively, 
we all appreciate it in the community--about the Decadal 
Survey. Let's see if we can't find a way to actually embrace 
it, beyond these road-mapping exercises. And so, what I would 
like to suggest is, we've recommended 17 missions to NASA. 
Let's look at the first six or seven of them. Let's start with 
them. Say, $10 million a year for seven missions to do the kind 
of detailed cost analysis, do the kind of detailed high 
technological risk parts, the so-called ``tall poles''--let's 
start working those right now.
    So, $70 million to take on the first seven--what would 
happen? Well, first of all, we would all join forces in the 
community because we would see a positive response. The 
country, I think, would begin to feel positively too, that 
we've got this thing back on track. Industry would look at this 
and say, ``Well, Earth Science is a place that we need to put 
our industrial money.'' I know the industry, quite often will 
say, ``Well, if NASA's going to invest ``X'' number of dollars, 
we need to invest that, because we're competing against our 
peers out here.'' So, when you're in a hole, the first thing 
you do is stop digging. Instead we would start to dig steps out 
of the hole. So, by making that kind of investment--$70 million 
is a lot of money, but in other ways, it's not a lot of money.
    Senator Nelson. Anything from you all for the record?
    Dr. Freilich. Thank you very much.
    Senator Nelson. Well, thank you for your time. I did not 
introduce you all, we just started right in on our 
conversation. Dr. Freilich is the Director of the Earth 
Sciences Division of the Science Mission Directorate at NASA, 
Dr. Moore is Director of the Institute for Study of Earth, 
Oceans, and Space at the University of New Hampshire, Dr. Brown 
is the Dean of the Rosenstiel School of Marine and Atmospheric 
Science at the University of Miami, and Ms. Colleton is the 
President of the Institute for Global Environmental Strategies, 
and is the Executive Director for the Alliance for Earth 
Observations. So, you all have added mightily to our knowledge, 
and our attempts to try to get this right. So, thank you very 
much.
    The meeting is adjourned.
    [Whereupon, at 4 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
